<html>
<title> - HEARING ON THE EMERGENCY PREPAREDNESS OF THE HOUSE AND THE EVACUATION OF MAY 11, 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 HEARING ON THE EMERGENCY PREPAREDNESS OF THE HOUSE AND THE EVACUATION 
                            OF MAY 11, 2005

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

              Hearing Held in Washington, DC, June 9, 2005

                               __________


      Printed for the Use of the Committee on House Administration


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-481                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California, Ranking Minority 
CANDICE MILLER, Michigan                 Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California
                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director

 
 HEARING ON THE EMERGENCY PREPAREDNESS OF THE HOUSE AND THE EVACUATION 
                            OF MAY 11, 2005

                              ----------                              


                         THURSDAY, JUNE 9, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:44 a.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(Chairman of the Committee) presiding.
    Present: Representatives Ney, Ehlers, Doolittle, Millender-
McDonald and Lofgren.
    Staff Present: Paul Vinovich, Staff Director; David Duncan, 
Deputy Staff Director; Bryan Dorsey, Professional Staff Member; 
Alec Hoppes, Professional Staff Member; George Shevlin, 
Minority Staff Director; Sterling Spriggs, Minority Director of 
Technology; Michael Harrison, Minority Professional Staff 
Member; and Matt Pinkus, Minority Professional Staff Member.
    The Chairman. The Committee will come to order. We are 
running about 12 minutes late due to the Rayburn fire this 
morning, and it took a little bit longer to set up the 
television here in Longworth.
    The Committee is meeting to examine emergency preparedness 
in the House and the evacuation of May 11, 2005. And we can 
talk about the Rayburn evacuation this morning, too. I happened 
to have been at my desk this morning at 5:10 in the morning. I 
had decided to get an early start so I could beat the 8:30 
rush; and, of course, I ended up talking with Congressman 
McNulty and Congressman Hayworth in front of Longworth at 5:37 
a.m. this morning. But I think we can look back over today at 
some point in time and find a few things that went right or 
wrong this morning.
    I would like to welcome everyone here today to the 
Committee's oversight hearing on the security and emergency 
preparedness efforts in the House of Representatives. In our 
first panel, we will hear from people responsible for life 
safety here. They are three people who are no strangers to 
anyone on our campus. We have Bill Livingood, our House 
Sergeant at Arms; Terrance, we call him Terry, Chief Terry 
Gainer, Chief of the Capitol Police; and our House Chief 
Administrative Officer Jay Eagen. Welcome to all three.
    Our second panel will consist of individuals with expertise 
in emergency preparedness, threat assessment, evacuation 
procedures, and movement of large crowds.
    Before we really get started with the hearing, I want to 
say a few things about the recent evacuation on May 11. In the 
event of a threat from an incoming aircraft, the police have 
mere minutes to assess the nature of the threat, make the 
decision to evacuate and, if they do decide to evacuate, get 
everyone out and away from the buildings quickly and safely. 
There is little or no margin for error. And I think that, 
overall, the United States Capitol Police did a superb job of 
evacuating the tens of thousands of people from the Capitol and 
the House and Senate office buildings in a quick and efficient 
manner.
    And I also want to give credit to all the staff, visitors, 
and Members of the House, who did a wonderful job of evacuating 
in what was perceived to be a true emergency situation leaving. 
In fact, I was talking with Congressman McNulty today about how 
well it went in the sense that individuals were not hurt, and 
that people returned in a safe and efficient manner so we could 
resume the work of Congress. Overall, I think it went quite 
well.
    Remember September 11, 2001, and the relatively ad hoc way 
these buildings were emptied. The bravery and professionalism 
of the Capitol Police on September 11th was exemplary, but it 
was clear to everybody that there was a real need to revamp and 
improve our preparedness training communication procedures. I 
can still recall quite clearly Jay Eagen had gotten a group 
together, and got one of his famous boards where he puts things 
up and down the categories--I say this flatteringly, as he is a 
very detailed person. And it was a combination of, at that 
time, Leader Gephardt, Speaker Hastert, the staffs, 
Appropriations, House Administration, Sergeant at Arms, the 
chief of police. Everybody under the sun that had a part of 
this gathered together because we faced a whole different world 
than we ever had to think about before.
    And so the witnesses on the first panel and the 
organizations they lead have worked tirelessly since 9/11 to 
make these improvements, and we have come a long way. The 
Capitol Police are highly dedicated, highly trained, first 
responders.
    At the direction of this Committee, the Chief and the 
Capitol Police Board have worked to ensure effective and 
redundant command-and-control functions. They have drilled 
countless threat scenarios and conducted quarterly drills of 
the House's evacuation plans. The Department has worked closely 
with other local and Federal agencies to share intelligence 
information, to monitor air and vehicular traffic, and to 
coordinate security for large events such as the Presidential 
inauguration. This coordinated information sharing is in direct 
response to the threat environment we live in, and is crucial 
to our preparedness efforts.
    The Committee has authorized deployment of a multilayered 
emergency communication system that is controlled by the CAO 
and Capitol Police, and utilizes e-mail, telephone, and 
portable annunciator announcements in addition to our audible 
evacuation alarms. These systems provide us with important 
capabilities to communicate with Members, staff, and visitors 
during emergencies.
    The hearing today will provide an opportunity, I believe--
this is why we are here--for the Committee to examine past and 
current efforts to improve the House's emergency preparedness, 
but also to provide an opportunity to identify areas in need of 
further improvement.
    Our second panel will offer insight into technologies and 
best practices for emergency preparedness, and suggestions on 
how to apply these technologies and best practices to help us 
achieve our collective responsibility for life, safety of 
visitors, Members and staff.
    Again, I want to recognize and thank all those who work day 
and night to make this campus safe. We all hope that our 
emergency plans never need to be implemented, but this 
Committee takes its oversight responsibility very seriously, 
and we wish to ensure that our plans and systems are adequate 
to respond to any emergency. I want to thank the members of 
this Committee, both sides of the aisle, and the staff, both 
sides of the aisle, for the countless hours they have put in 
especially since 9/11 up until today.
    I did also want to mention that due to the nature of 
today's subject matter, I found it appropriate to conduct the 
first part of the hearing in open format. If questions are 
asked by Members of the panelists that you feel are sensitive, 
I don't want to just rush off into an executive type of 
session; we can defer that until later. I want to keep as much 
of this open to the public. I think the public and the media 
would understand there are certain parts we don't want to 
discuss because it jeopardizes their safety as well as the 
visitors and the staff to the Capitol. So I would ask for your 
understanding and cooperation when that point in time comes.
    Further, I would ask Members and witnesses to be mindful in 
the first portion of our hearing to reserve any comments or 
questions with respect to any specific process or procedure 
which may involve sensitive law enforcement information. We 
will discuss that in a closed part of our hearing.
    And let me just conclude by saying that my boss, Speaker 
Hastert and his staff, have said it, if not once, 100 times, 
that there has to be security and safety, but the building has 
to remain open to the public. Since 9/11 he has done that, 
working at that time, of course, with Leader Gephardt and now 
Leader Pelosi, and that has been the objective of the Speaker, 
and it has been carried out. But that doesn't mean it is not 
done without a lot of work.
    Right before I move on to our Ranking Member, I do want to 
say this, too. Another reason for the hearing today, too, is 
there has been questions raised. The emergency instructions 
that we received, were those carried out, was the trigger 
pulled in the right way on those instructions. In other words, 
the plane was small, could have bounced off the Dome, we all 
heard those things. And I think those things, frankly, need to 
be addressed as they have been raised in the media.
    And, with that, I will yield to the Ranking Member and 
welcome her here today.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And again, 
let me echo what you said about the quick response of all of 
those who were involved in May 11. I tell you, that date, 11, 
seems to be sticking with us for some reason; 9/11, May 11. But 
indeed we want to applaud our Chief, Chief Gainer, Sergeant at 
Arms Livingood for their expedience in which they evacuated the 
staff. There are some things, of course--and Members as well 
and others, tourists and all who were here. So I echo those 
sentiments of the Chairman.
    And, Mr. Chairman, thank you again for convening this 
hearing.
    I would like to also thank again Chief Gainer and Assistant 
Chief Rohan as well as Sergeant at Arms Livingood for this 
morning. It seems like they are getting up now earlier than 
ever before to tackle those things that are just so prevalent 
among us in this environment. And so the work that you did in 
Rayburn, I applaud you. I got an early call this morning from 
my staff, and they thought they were going to be late coming in 
to work, and I had to tell them they are due right on in now. 
So it was great. But thank you so much for the work that you 
all have done, and thank you, Mr. Chairman, for convening this 
hearing.
    I certainly believe that we need to conduct an after-action 
review of events surrounding the May 11, 2005, evacuation of 
the Capitol complex. Numerous public comments and private ones 
from many of our House colleagues, from our staffs, and from 
others have made it clear that we need to examine thoroughly 
what happened all around this Hill and the complex when that 
unknown light aircraft intruded into the restricted airspace 
over Washington with unknown intentions. I am sure that many 
things went right, and we know that, during this incident. I am 
also sure that there are many things that we can improve upon 
in the event of a future such urgency. But let us hope that 
there is no such urgency ever, but let us also resolve to learn 
from this experience as we discharge our responsibilities in 
this committee.
    It is important to note that this committee has no 
jurisdiction over the Department of Defense, the Department of 
Homeland Security, the Federal Aviation Administration, or any 
other department or agency that Congress may have entrusted 
with the duty to defend the skies over Washington, including 
the Capitol. That duty, which belongs to the executive branch, 
is within the jurisdiction of other committees. We are here to 
evaluate the emergency response to the agencies under our 
jurisdiction, including the Capitol Police, the Library of 
Congress, and, of course, the House itself.
    And along those lines, Mr. Chairman, I am disappointed that 
neither the Director of the Office of Emergency Planning, 
Preparedness and Operation nor any of their subordinates were 
able to appear and share the benefits of this insight since the 
insight of that particular person, that personnel, since this 
work goes to the essence of what this hearing is all about. So, 
Mr. Chairman, I respectfully suggest that we should have 
another hearing, even a field hearing if necessary, to have the 
committee review the OEPPO's important work.
    In addition to that, Mr. Chairman, as you talked about the 
oversight very seriously that we have, I want to reference a 
letter of November 18, 2004, before I became the Ranking 
Member, that talked about the responsibilities of this 
committee with reference to receiving and considering all 
legislative proposals pertaining to the Capitol Police and 
Police Board, and would like to again reiterate what that 
letter said, though my signature was not on it; that that is 
our jurisdiction and oversight, and that requests for 
legislative provisions fall within our panel of jurisdiction. 
Certainly those provisions are our responsibility and must be 
submitted for our consideration, and I just wanted to note that 
for the record.
    The rules of the House of Representatives require that 
committee meetings be open to the public, but permit panels to 
close their meetings when sensitive matters will be discussed, 
and only then by a recorded vote is stuff taken in private. 
While I am generally reluctant to supporting conducting the 
people's business outside of the public's view, in this case I 
go along with my Chairman, and I believe it is within the 
purview of this committee that, given the sensitivity of the 
nature of the information, that therefore I support a motion to 
close this hearing. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady, and I do want to 
stress that we will only do that if necessary. We are going to 
try to keep as much open. I appreciate the gentlelady for her 
support.
    The gentleman from California. Do you have a statement.
    Mr. Doolittle. I have no opening statement. I look forward 
to hearing the witnesses' statements, Mr. Chairman.
    The Chairman. Thank you. And we will go right to the panel.
    I just did want to mention, because I had a note here on my 
Blackberry, that an issue--I have not read the full article, 
but a Homeland Security official confirmed that Secretary 
Chertoff has launched a review of the Cessna incident because 
that deals with us, what happened here with the evacuation, 
characterizing this as a fairly routine effort to examine what 
can be improved next time. And one of the issues being explored 
is whether the evacuation should have been called in the first 
place. Of course, that deals with the decision to evacuate as 
opposed to the evacuation itself. We had absolutely no choice 
but to respond. I want to make that clear for the record. But, 
again, they go into some situations about people standing out, 
or whether that plane could have crashed into the Dome without 
any problems. So I just thought I would mention that, as it was 
in the report.
    And with that we will start with the Sergeant at Arms 
Livingood.

STATEMENTS OF WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF 
 REPRESENTATIVES; TERRANCE GAINER, CHIEF, U.S. CAPITOL POLICE; 
  AND JAMES M. EAGEN, III, CHIEF ADMINISTRATIVE OFFICER, U.S. 
                    HOUSE OF REPRESENTATIVES

                 STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Good morning, Mr. Chairman, Ranking Member 
Millender-McDonald and members of the committee. I am honored 
to appear before you today to discuss our progress in emergency 
preparedness since September 11, 2001.
    Before I begin, I want to take a moment to thank the 
members of the committee for your ongoing support of our 
emergency planning efforts and security as well as the support 
that you have shown time after time for the men and women of 
the U.S. Capitol Police. It is both valued and appreciated by 
all.
    I would like to start by just mentioning this morning, this 
early morning, we had a small fire in the roof area of the 
Rayburn House Office Building.
    The Chairman. I would note, outside 2438, my office.
    Mr. Livingood. I would like to thank the D.C. Fire 
Department and the U.S. Capitol Police for their quick 
professional response and actions taken. It was outstanding.
    You may recall that 1 year ago this afternoon during 
preparations for the lying-in-state ceremony for President 
Reagan, the presence of an unidentified aircraft inside the 
flight restricted zone led the Capitol Police command staff to 
order the evacuation of the entire Capitol complex. This 
incident was our first full-campus evacuation since September 
11th, 2001. On May 11, 2005, it was again necessary to evacuate 
the Capitol complex because of an aircraft.
    These events, though 11 months apart, are not rare. Several 
statistics from the TSA, Transportation Security 
Administration, regarding aircraft incursions in the national 
capital region lend some valuable perspective. Since January 
2003, there have been over 50 penetrations of actual prohibited 
space, the area that includes the Capitol and the White House. 
In some of the further areas there have been a lot more. But I 
wanted to mention particularly the area surrounding the Capitol 
and the White House.
    Just a few years ago the very idea of an airplane being 
used in an attack here in the United States on the Capitol or 
elsewhere was something one read about in the pages of a Tom 
Clancy novel. Sadly, this is no longer true. To people around 
the world, the Capitol, perhaps more than any other building, 
represents the United States of America and the democratic 
principles at the heart of our form of elected government. Yet 
it is this very symbolism that makes the Capitol and Congress 
such tempting targets for those who wish to strike a blow 
against our form of government.
    Since September 11, 2001, I, along with those sitting 
beside me at this table, as well as our colleagues on the 
Senate side, have been diligently involved in both the risk 
assessment and risk management necessitated by this new threat 
environment. Our goals have been to plan and to prepare, refine 
our procedures, and investigate every possible method to best 
manage the potential threats.
    We have made considerable progress and continue to make 
considerable progress. Areas we have already focused on include 
improved coordination of security efforts between the House and 
the Senate. An example is the Emergency Measures Task Force. 
This joint group composed of representatives from all essential 
offices involved in emergency planning and the Capitol Police 
meet biweekly.
    Threat and vulnerability assessments have been made of the 
Capitol complex. Several studies have been completed or are 
under way. A thorough threat assessment of the entire complex 
completed by an outside contractor was done with the assistance 
of Federal law enforcement experts. We have commissioned an 
independent review of the evacuation planning for the Capitol 
and all House office buildings. That is just completed. A study 
is under way examining the consequences of an aircraft hitting 
the Capitol or an office building, and whether we should 
shelter in place or evacuate. We feel that there are a lot of 
experts out there that have comments either way, and that we 
are not structural engineers, and that we need a thorough 
review of that before we make a determination what our policies 
will be instead of shooting from the hip or off the top of our 
head. So we have a commission to study which will consist of 
evacuation experts and structural engineers and aircraft people 
that know certain aspects of the airplanes.
    A study is ongoing to review the evacuation procedures when 
we are outside the building. What do we do when we go outside 
the buildings? A study is on to see what our policy will be.
    We have been testing and improving the alarms, 
annunciators, and have a new public address system started 
which will be completed at the end of this year. We have 
created an individual office emergency coordinator for each 
Member office, committee, and support office. We have continued 
office emergency coordinator training, covering evacuation 
procedures and the use of quick hoods. We have developed an 
evacuation and shelter-in-place procedure. We have deployed 
over 20,000 quick hoods along with ongoing training for Members 
and staff. We have established decontamination procedures. We 
have had enhancements to our chem-biological response 
capability. We have had enhancements to explosive protection 
and response. We have developed a program for Member briefing 
centers as well as contingency planning for continuity of 
government.
    However, the complexity of the security situation we 
encounter on Capitol Hill requires us to move forward. The 
security of the Capitol complex is difficult because the 
interdependency of buildings, the enormous number of visitors 
to the campus, the openness of the institution, and the 
changing nature of Congress and staff. In addition, the density 
of the development around the Capitol and the variety of 
emergency situations that may arise adds to the complexity.
    The national importance of the Capitol Hill complex demands 
an effective and comprehensive security approach to ensure 
success. Emergency management, including preparedness, 
response, and recovery of all essential functions, are a vital 
component of a comprehensive program to ensure Capitol complex 
and the campus security. We are addressing all these components 
with the development of a proposed emergency management 
architect to ensure agency coordination and a computer-aided 
evacuation modeling that will enable us to test, evaluate, and 
monitor evacuation performance.
    Mr. Chairman, I would like to submit the rest of my 
testimony for the record.
    The Chairman. Without objection.
    Mr. Livingood. I thank you again for taking the time to 
focus on this vital issue of emergency preparedness. I will be 
happy to answer any questions you may have at any time.
    The Chairman. I want to thank the Sergeant-at-Arms for your 
testimony.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.026
    
    [GRAPHIC] [TIFF OMITTED] T2481A.027
    
    [GRAPHIC] [TIFF OMITTED] T2481A.028
    
    [GRAPHIC] [TIFF OMITTED] T2481A.029
    
    [GRAPHIC] [TIFF OMITTED] T2481A.030
    
    The Chairman. And we will move on to Mr. Eagen, the CAO of 
the House.

                STATEMENT OF JAMES M. EAGEN III

    Mr. Eagen. Thank you, Mr. Chairman, Ranking Member 
Millender-McDonald, Mr. Doolittle. I am honored to be here with 
Mr. Livingood and Chief Gainer.
    It never fails to strike me that in a situation like today 
or what we faced on May 11, that as we are quickly exiting the 
buildings, the Capitol Police are still standing by their posts 
as we pass by, ushering us out of the building. And I for one 
would like to thank the Chief and his troops for their support 
in those kinds of circumstances.
    The CAO's role relative to the Capitol Police and the 
Sergeant at Arms is more of a secondary and supporting role. 
Two elements that I would like to overview for you today: 
First, how did we support the incident on May 11? And, 
secondly, what is the broader business continuity and disaster 
recovery program that the CAO is undertaking on behalf of the 
House?
    With regard to May 11, our primary roles were two 
functions: one, to send additional communication messages to 
the House campus about the event; and, secondly, to work with 
our child care center to evacuate the children that reside in 
the House Child Care Center. We received notification of the 
air con red condition from the Capitol Police command center at 
12:04 p.m. on May 11, and at 12:06 p.m. our emergency 
communication center sent out a House alert message. To be 
clear, that House alert message is not the annunciators, it is 
not the sirens in the buildings. Those are issued directly by 
the Capitol Police command center. Our messages are secondary 
messages that go out simultaneously to an all-campus e-mail, to 
Blackberry, and to text messaging for those cell phone devices 
that support that kind of communication.
    After the incident had resolved itself, we then sent a 
closing message out, and in this case that occurred at 12:42 
p.m. on May 11.
    Our second action on May 11 was with regard to the House 
Child Care Center. When the notification goes out with regard 
to the sirens and the annunciators, we have a methodology where 
the children are moved from the center to two buses that have 
been acquired by the House, and they are taken off campus to 
predetermined relocation centers. In this particular situation, 
the threat resolved itself so quickly that the children did not 
have to go all the way to the location, but were called back 
once the threat had been stood down and came back to campus. I 
thought that it was a very successful relocation for our 
children in that no one was hurt, and we were able to notify 
the parents through multiple communications methods of where 
their children were going and that they were safe.
    I would now like to move on to the second aspect of the 
CAO's work, and that is a broader characterization of disaster 
recovery and business continuity. We have had a very broad 
program that was established in the wake of 9/11 and anthrax in 
the House in 2001. It was broken basically into four 
components: communications, continuity of operations, 
technology capabilities, and mail, secure mail and digital 
mail.
    In the area of communications, we have adopted an anywhere, 
anytime philosophy that relies on in-depth communications 
capabilities to try to reach Members wherever they are at 
whatever time they need to be reached, and to create methods 
for Members and staff to be able to communicate with one 
another. In that regard, we established the emergency 
communications center, which is up 24 hours a day, 7 days a 
week, and primarily uses this House alert system with the 
earlier capabilities that I referenced. We also can use the 
House floor paging notification methodology to reach Members in 
certain circumstances. We have a dialogic phone calling service 
that we can do under certain circumstances, and we have 
distributed government emergency telephone systems, GETS, cards 
that allow Members and certain key staff to use the public 
phone grid in a special emergency situation if the phone grid 
is overtaxed.
    We have also established some significant remote access 
capabilities for the House campus, meaning that if we were to 
lose access to these buildings, we have established dial-in and 
broadband connections that will allow up to 5,000 simultaneous 
users to come back into the House campus using laptops and home 
computers to keep contact with their computer systems here in 
the House.
    In the area of continuity of operations, we have 
established an overall House emergency operations plan that is 
documented and drilled and exercised and practiced so that our 
people know how to use it if such a circumstance dictates.
    With regard to technology, our primary accomplishment has 
been the creation of an alternative computer facility. Prior to 
9/11 and anthrax, the House had a single point of failure in 
that all of our major computer assets were located in one 
building here on the House campus. That was known to be a 
weakness, and we have since, working with the Senate and other 
legislative branch agencies, constructed a new facility, fitted 
it out with equipment, staffed it, and are now standing up 
various kinds of enhanced redundancy capabilities to protect 
the House data and computing systems capabilities.
    We have also established additional voice and data 
capabilities. For example, in a circumstance where the House 
were to be evacuated for an extended period of time, we can 
literally with the flick of a switch transfer all of the 
incoming phone calls from the Washington campus to the district 
office phone numbers of the Members so that they can continue 
operations.
    We have also established two mobile capabilities, a mobile 
broadcast capability where we now have a van and a supporting 
truck that can follow the House and broadcast the House's 
proceedings wherever the House determines it needs to do 
business. That can be done with a satellite linkup so that we 
can connect to C-SPAN or other network interests that want to 
receive the House proceedings over the air.
    We also have acquired two mobile communications trucks 
that, between them, are able to support 1,000 laptop computers 
and 1,000 telephones so that the business operations of the 
House can be supported at alternative locations.
    Finally, in the area of mail, we have had to reinvent the 
entire House mail system since 9/11 and anthrax. At that time 
the mail system was conducted on campus in a House office 
building. After the anthrax experience, we determined that it 
was no longer viable to have that kind of a security-threatened 
operation within the House buildings. We have acquired an off-
campus mail facility, and the Postal Service has stood up an 
irradiation methodology to attempt to cleanse the mail. We do 
additional testing and screening of the mail to make sure that 
either real or hoax-type threats are not reaching the Members' 
offices to distract the business of the House of 
Representatives.
    I appreciate the opportunity to testify today, and I am 
happy to answer any questions.
    The Chairman. I want to thank you for your testimony.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.031
    
    [GRAPHIC] [TIFF OMITTED] T2481A.032
    
    [GRAPHIC] [TIFF OMITTED] T2481A.034
    
    The Chairman. Chief Gainer.

                  STATEMENT OF TERRANCE GAINER

    Chief Gainer. Yes. Good morning, Mr. Chairman and Madam 
Ranking Member. I appreciate the opportunity to address you 
today. And I apologize for not having my blouse and coat and 
tie on, but I morphed right from that last incident to this 
one; I didn't have a chance to really catch my breath.
    I would ask leave to submit my entire testimony, and would 
just like to hit a few highlights in context of what we were 
doing since 9/11. And when I use the word ``we'' in there, it 
really means so many of the people, two of whom are sitting 
with me here today, as well as this committee and others, 
especially the Architect of the Capitol, who have worked hard 
to provide the necessary security enhancements.
    With the installation of bollards around much of the 
Capitol complex, we have been able to remove a large amount of 
unsightly concrete barrier material that was very important to 
the protection of what we are doing here. We have installed 
new, improved and more aesthetic security and vehicle barriers. 
In locations where we have found vulnerabilities, we installed 
temporary vehicle barriers until permanent units can replace 
them.
    We continue to enhance the many physical barriers that 
provide visible evidence of our commitment to keeping the 
Capitol complex secure, but behind these visible measures are 
numerous other security measures that are less obvious. The 
entire Capitol complex has undergone an infusion of technology 
improvements, enhancements, and new implementation of state-of-
the-art security to deter, detect, and delay unlawful acts 
using a risk analysis process to determine appropriate 
application. These technologies, which are workforce 
multipliers, allow us to monitor the campus and control access 
to facilities with greater efficiency and effectiveness.
    Our technologies provide greater safety and assurance for 
the Capitol complex through the use of improved X-ray machines, 
magnetometers, technologies to scan all incoming material 
shipments in an off-site location, monitors, sensors, panic 
button alarms in the Members' offices, intrusion alarms 
systems, emergency notification systems, and measures to detect 
covert listening devices.
    We have enhanced our explosive detection capability with an 
expansion of explosive detection technology and an increase in 
the number of dog teams employed throughout this complex.
    Our ability to observe and detect potential threats has 
been enhanced through expanded closed-circuit television and 
building perimeter intrusion alarm systems.
    We have reduced the potential for vehicle-borne explosive 
devices entering the complex through an integrated system of 
observers, road barriers, and the use of random vehicle 
inspections at key intersections.
    We have increased the safety and security of our employees 
as they arrive and depart each workday with emergency call 
boxes in garages and parking lots.
    In partnership with the House Chief Administrative 
Officer's emergency communications, we have enhanced our 
ability to provide important instructions and messages to 
Members, staff, and visitors. We are currently installing a 
public address system in the public spaces of congressional 
office buildings with coverage extended to the evacuation 
assembly areas. Other enhancements have been identified and are 
being implemented each day.
    But beyond this, beyond the joint planning with 
congressional entities, Capitol Police also work closely with 
different groups within the national capital region to ensure 
that regional emergency planners consider and include the 
unique perspective and requirements of the congressional 
community and regional planning in this different branch of 
government.
    The Joint Federal Committee hosted by the Department of 
Homeland Security and Metropolitan Washington Council of 
Governments represent just two key planning groups where 
Capitol Police are active participants. Our establishment of 
the Capitol Police of the Office of Plans, Operations and 
Homeland Security, approved by this committee, has bought 
together the police command and communications, our special 
events and emergency management functions under one umbrella 
organization to coordinate and supervise the preparation for 
and response to emergencies and large-scale events. We know 
there is more work to do in this area.
    The establishment of our Hazardous Material Response Team, 
HMRT, provides Capitol Police with a specialized unit prepared 
to deal with chemical, biological, or radiological incidents 
occurring anyplace within this Capitol complex, and it is the 
envy of most agencies throughout the United States. We have 
highly trained elements that deal with explosives, armed 
intruders, unruly crowds, disturbed individuals, and 
individuals who make threats.
    We at the Capitol Police look forward to continuing to 
safeguard Congress, its staff, and its visitors to the Capitol 
complex during these challenging times. We look forward to 
working with the Congress and particularly this committee in 
improving our operations again, which we know each day, even 
based on the incident today, we learn something new from this. 
And we are anxious for your questions and to hear what some of 
our contemporaries from the private sector have to say. Thank 
you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.035
    
    [GRAPHIC] [TIFF OMITTED] T2481A.036
    
    [GRAPHIC] [TIFF OMITTED] T2481A.037
    
    [GRAPHIC] [TIFF OMITTED] T2481A.038
    
    [GRAPHIC] [TIFF OMITTED] T2481A.039
    
    The Chairman. I want to thank all three of you for your 
testimony. I am going to ask a few questions, and I am going to 
go to the other two Members, and then we can do a second round. 
One thing that just popped into my mind while all of you were 
testifying is the feasability of evacuating the CVC when it is 
fully operational. The evacuation might apply to a couple 
thousand people.
    Chief Gainer. One of the things we began----
    The Chairman. Assuming it was in full operation.
    Chief Gainer. And one of the things we did after the first 
evacuation during President Reagan's funeral was to turn to a 
lot of professionals, pilots, engineers, university types to 
see what the best practice was. And frankly, Mr. Chairman, the 
jury is out on that. And there is a lot of unknown information 
about not only the size of the plane could do, but what might 
be in that plane. So, frankly, it might be a little bit too 
early to determine what that is.
    And I know that, because we have sat and met with the 
Deputy Secretary of Homeland Security, and I have met 
personally with the Secretary of Homeland Security where we 
talked about the size of the plane and what it might do. And we 
need to do more of those, have more of those conversations.
    But we do know this: We have done a lot of studies about 
the effects that different-sized aircraft have on the various 
buildings on this campus, and at the moment, at least at the 
moment, based on the type of information we have on the 
aircraft, our recommendation if it happened 5 minutes from now 
would be to evacuate most of the buildings.
    The Chairman. So, with what we know now about the Cessna, 
you still would have evacuated the buildings?
    Chief Gainer. We would. Now, there are a couple of 
buildings we have identified that get a little bit more remote, 
whether there are some on the Senate side that are occupied by 
a lot of staff members or some further away on from these core 
buildings on Independence and Constitution. But since there are 
so many unknowns about what could be in the plane, that is one 
of the key things.
    You know, a Cessna 150 as we had loaded with C4 would do 
substantially more damage than a Cessna 150 that was low on gas 
and nearly empty. And those are the unknowns we don't have.
    The Chairman. I am told that panel 2 will have some people 
that can answer some questions on what was or was not in the 
plane. But I was just thinking with the CVC that you might have 
a twofold type of evacuation. If a large plane was headed 
towards the Dome, you would want to get the people out of there 
because of a potential jet fuel explosion, but you may not want 
to get people out from underground in the Visitor's Center, for 
example.
    I think it is worth mentioning that we didn't used to have 
these types of incidents, and all of a sudden we had to create 
a system, including the digital mail and everything that Jay 
Eagen spoke about. It is remarkable how many changes occurred. 
With 9/11 we had to immediately set up the laptops. We we went 
down to GAO, as I recall. Everybody did such a fine job in a 
terrible crunch, and we are more prepared now.
    At one point in time, if we had some type of situation 
suspicious on these floors, we used to have to evacuate entire 
floors; now you Blackberry and say ``Stay away from this 
room.'' So it has been refined along the way here on the Hill. 
I would assume that you would take a good look at that process, 
because when the CVC is in operation, there may be times you 
don't want people to leave the CVC, but you want them to leave 
the Capitol, or vice versa.
    Chief Gainer. Yes. And one thing on the plane size, if I 
can, is its maneuverability. The upside of a small plane is at 
least there is initial perception how little damage it can do. 
The downside of a small plane is its maneuverability. So one of 
the totality of the circumstances we would be looking at with 
an incoming aircraft is its flight path towards the Capitol. A 
smaller plane, if it is coming in from the westbound, which 
seems to be the conventional wisdom with the Mall, it would be 
much easier for the small plane to counteract what we are 
doing. Obviously, with a larger plane, as even what we saw with 
the Pentagon, it is much more difficult to maneuver. So it 
would really depend on the size, the speed, and the direction 
from which the plane was coming.
    The Chairman. If it was a small plane, it still could have 
the crop duster effect if it could distribute chemicals onto 
crowds of people. This concerns me.
    I think the gentlelady pointed out something about the 
executive branch. Again, I have no doubt in my mind that we 
made the right decision to evacuate given the information we 
had at the time from Homeland Security. You all made the right 
decision 150 percent to do that. But I still think Homeland 
Security needs to evaluate small planes, large planes, 
potential items in them, and then decide whether or not to 
evacuate.
    And within their jurisdiction, frankly, is the 
communication with the District of Columbia. I am very 
sensitive to Delegate Eleanor Holmes Norton. I know you have 
made great strides in communicating. There were some questions 
at one point in time about communication, and I know you have a 
working group and coordinate with the District of Columbia. The 
controversy arose about the rest of Washington being evacuated, 
which is frankly not our responsibility here on the Hill. It is 
the responsibility and the coordination of Homeland Security, I 
believe, and metro D.C. But from Capitol Hill's point of view, 
I believe that we have coordinated a lot and have improved that 
coordination with the District of Columbia.
    Chief Gainer. Mr. Chairman, would you mind if I at least 
comment on the chemical spray again, because I know there is a 
lot in the press about that. One of the things that go into us 
making the decision is what we know from an intelligence 
perspective. And you know as Chairman of this committee that we 
have people dispersed throughout the Federal system getting 
intel. And so in weighing what might be in a plane, not 
knowing, is whether we believe that terrorists have the ability 
to deliver chemical or biological in a weapons fashion. So, I 
mean, there are a lot of possibilities. A plane could be loaded 
with C4, or it could be loaded with a chemical. But intel tells 
us that the ability of our adversaries to do that and deliver 
it is low in the United States.
    The Chairman. I had a question for the Sergeant at Arms. 
You said a study is under way examining the consequence of an 
aircraft hitting the Capitol or an office building, and whether 
we should shelter in place or evacuate. Is that being done by 
Homeland Security?
    Mr. Livingood. No, sir. That is being done by some 
contractors that we have hired and one of the national labs.
    The Chairman. And I believe Homeland Security has said 
publicly I that they are also looking at this type of thing--a 
plane hitting a building. Would there be coordination between 
us and them in sharing the results?
    Mr. Livingood. There will be. We have already discussed 
that with the Deputy Secretary. The only thing, they are not 
coming out here and going through all our buildings from a 
structural standpoint. I think they are concentrating more on 
the bigger picture, where we are concerned with our buildings 
here in the Capitol complex strictly, and we are doing a 
thorough analysis to include the Dome, as you say, and the 
House buildings and the Senate buildings.
    The Chairman. We focus on the Dome, but there is the 
possibility that it could crash into the buildings, in the 
complex too.
    Mr. Livingood. Yes, sir.
    The Chairman. I work with a lot of groups that are 
concerned with persons that have a form of a disability, and we 
did have phone calls from some of the groups saying that 
persons who had disabilities were having trouble getting out of 
the building during the evacuation. And I think that the 
Capitol Hill Police have requested information regarding 
employees with disabilities, and requested that offices report 
if you have disabled individuals. The OEPPO recently requested 
updates of any such information on behalf of the Capitol Hill 
Police. Have you acquired this information? What do you do with 
it? And the second thing I wanted to ask is, do you know cases? 
I would try to track down Members when they have situations 
where a person with disabilities is having trouble getting out 
of the building.
    Chief Gainer. Our House division, Mr. Chairman, does have a 
list of the disabled staffers and their room numbers, and 
during evacuation units are dispatched to conduct sweeps of the 
hallways. The House side is a little bit further behind than 
the Senate side in having backup power to elevators that would 
facilitate that. But the Architect of the Capitol is working 
feverishly at doing that.
    So, we do have the names. We anticipate that the elevator 
situation will be resolved shortly. This week, again, as a 
result of our May 11, we are sitting down with some of the 
advocacy groups for the disabled and the handicapped to get 
their perspective on how we can handle these situations better. 
So it is an ongoing, evolving process.
    Mr. Livingood. Once they finish these backup power for 
elevators, which we hope will be done very quickly, we will 
then put the information out to the offices, and someone from 
the office--we are going to recommend a buddy system--take them 
down to the elevator, the designated elevator, and they will be 
able to evacuate.
    The Chairman. We had a staffer here during 9/11 that was 
blind. That was a relatively easy situation to take care of 
because people walked with him, he brought his guide dog, and 
it was fine. But people who are in wheelchairs, for example, 
would have a real difficult time. But I was told there were 
some people that could not get out. Is that correct?
    Chief Gainer. We do know that there were some problems with 
that.
    The Chairman. But you are working quickly, I assume, on 
that?
    I have one other question I want to ask, and it is about 
debris in the hallways. The hallways in these complexes are 
becoming full of everything. There are boards representing 
noble causes, don't get me wrong, but they are all over the 
hallways. There are electronic devices, computer screens, 
deficits, boards honoring people again. And they are good 
causes. I am not quibbling with what the deficit is or whether 
it should be reduced, but there are all of these things all 
over the hallways.
    This morning we had a smoke situation which, because of the 
cord that caught on fire out in the hallway, passed the fourth 
floor. If you have smoke and you have to get down, are you 
going to run into these things? Are they going to fall over? 
Hundreds of people could be running up and down these hallways. 
Is anybody taking a look at that for an emergency situation?
    Mr. Eagen. Mr. Chairman, there has been a working group 
that was established that has submitted a proposal for policies 
for the House hallways that is pending before this Committee. 
It was submitted about 2 weeks ago, and it has also been 
submitted to the House Office Building Commission jointly. We 
are hoping that the Committee will be able to review that and 
that the House Office Building Commission would be able to 
review it and establish those kinds of procedures. There are 
some challenging aspects to that knowledge, but there has been 
a policy recommended to the House for consideration.
    The Chairman. And as you say, the officers stayed in the 
buildings. They kept trying to move people out of these 
buildings. And if you have these hallways packed with thousands 
of people, and there are couches and everything else under the 
sun in these hallways, and boards and everything that are out 
there, I assume that has to be a real safety problem. Somebody 
could fall on one of these, be impaled by them in rush.
    Mr. Ehlers. Would the gentleman yield? I was appalled my 
first day in the Congress to see the amount of stuff in the 
hallways. I have never worked in a place where, if you wanted 
something moved, you put it out in the hallway and put a sign 
on it that says ``Remove,'' or if you need extra space, you put 
a sign out saying ``Do not remove.'' It looks like a junkyard 
many times.
    We have made efforts in this committee to get rid of that, 
and it is far better than it used to be, but it is still 
incredible. Desks, chairs, lamps just perched out there. In a 
normal establishment, when you have something to get rid of, 
you call the appropriate people, they come and pick it up and 
take it away. Here we just dump it in the hallway. Maybe there 
are 3 or 4 days before it is gone.
    And I hope that you incorporate it. The Chairman has made 
that issue with me back in 1994 or 1995, as soon as he got on 
this committee, and I totally agree with him. It is 
incomprehensible and should not be allowed. People simply 
cannot put stuff in hallways. They are not storage spaces.
    Mr. Eagen. Basically, Mr. Ehlers, the proposed policy does 
exactly that. It would deny placement of trash, furniture, et 
cetera, in the hallways. It is not 100 percent comprehensive, 
in all candor, I will tell you, because in certain 
circumstances such as hearing room use where receptions are 
held in these rooms with a great deal of frequency, there is 
not storage capacity to move all that furniture on a regular 
basis and in a rapid manner. So it does make some limited 
exceptions for temporary storage. But, generally, the current 
practice that you have referenced of other items being put in 
there for pickup and so forth would be no longer acceptable if 
those policies are approved.
    The Chairman. I just want to move on to a couple questions, 
again, and then we will move on to other Members. But I did 
want to ask how we are double-checking (the audible alarms) 
during the day of the emergency. For example, Congressman 
McNulty today was standing talking to me, and he had his 
annunciator in his hand, but it had not gone off. When I heard 
the alarm, I was out of the building, and then some of the 
people that came after that were doing some cleaning of the 
building told me that they heard this is not a drill. But when 
the alarm went off this morning, I just heard the alarm and 
followed. But later on they told me the voice came on and said 
this is not a drill.
    But the day of that emergency on May 11, what about the 
audible alarms? How do we double-check, because Members will 
come up and some will say, ``Yes, my alarm went off, and some 
will say no.'' Do we have a system where we could find out from 
Members' offices what really worked and what didn't?
    Chief Gainer. We do have a system. We test the annunciators 
in each building on a monthly basis. We had talked about doing 
that more frequently, and most of us would like to, frankly, do 
it more frequently, but we balance that between the disruption 
that comes with the office.
    But what happens, for instance, in those monthly exercises, 
a message that will be sent over the e-mail system that there 
is going to be a test at such and such time; and if you don't 
hear the message, then through the Internet and e-mail system 
you can respond back to the monitoring office what your problem 
was. And then we do have a contractor that comes in and works 
with the Member's office about what the particular problem is. 
And the failure rates have actually been low, and generally 
they have been because the device is moved. These devices are 
set up to work in certain spots in the office, and given the 
activity in the office and the movement of paper and desks, we 
generally see that the problem is that either it has been 
moved, it has been unplugged, or that portable device has not 
been reseated properly.
    The Chairman. The gentlelady from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And thank 
you for your questions, because the question of disability was 
one that I had. And certainly I do appreciate your continuing 
to provide the leadership and trying to resolve those issues 
because it is important not only for the few Members in 
wheelchairs and others, but those who are coming to see us and 
staffers, blind and/or hard of hearing and other types of 
handicaps. Excuse me for saying ``handicaps.'' Disabilities. We 
should be cognizant of that.
    And also the notion of those things in the hallway, I tell 
you, it certainly does look like a junkyard. Something of this 
magnitude, being the most deliberative body in the country, and 
you come to our hallways, and you have storage stuff all out 
into the hallways saying ``Do not take'' or ``Take'' and it 
seems like there are a couple of days before those things are 
taken. And that is--not only doesn't look good, the aesthetics 
are not good, but we are talking about the safety of this, 
especially in terms of any evacuation.
    Mr. Livingood, you spoke about since 2003 there have been 
50 incidents surrounding the Capitol and the White House on 
issues such as May 11, and even more, a greater number, I 
suppose, outside of the perimeters. You say you coordinate with 
the House and Senate ofttimes on ensuring that your plans are 
all in place. But what about the city buildings?
    Getting back to Delegate Eleanor Holmes Norton, and the 
city was concerned that they did not hear anything about the 
evacuation given May 11th. Are we--and that is within the 17 
mile radius; am I correct? Then are you--or why aren't we, or 
are we, coordinating with the city with reference to the plans 
as well?
    Mr. Livingood. We have had discussions with the city on 
that. And I will let the Chief--he is the one that had the 
discussions recently.
    Ms. Millender-McDonald. Of course.
    Chief Gainer. As you know, Chief Ramsey and I go back a 
long way. We first came on the Chicago Police Department in 
1968, so we have been together a long time.
    Ms. Millender-McDonald. Talking about a buddy system. I 
tell you. 
    Chief Gainer. What we have done since May 11, in addition 
to some of the things we had done before that, is agreed to 
share the Blackberry information immediately with some specific 
members of his command staff. And they also are going to detail 
one of their officers to our command center in addition to some 
of the jointness we have at the National Capital Region 
Coordination Center or at Homeland Security. So we have really 
tripled the system of simultaneous notifications.
    And Chief Ramsey and I, we have always communicated since I 
have been over here on Blackberries. We might talk two or three 
times a day. And so we have built at his command center, and 
our command center he has an individual. We are also in the 
midst of installing a ring-down phone in our command center to 
additionally give the police department more command 
information.
    Ms. Millender-McDonald. And is this post-5/11 or pre-5/11?
    Chief Gainer. Two of those things are--Blackberries were 
pre-5/11. The ring-down phone and the individual stationed in 
ours is post-5/11. Although, during any anticipated event, for 
instance, the State of the Union, the funeral, the 
inauguration, we will have people in each other's command 
center, but on a day-to-day basis this is new.
    Ms. Millender-McDonald. That is good. And whomever needs to 
answer to this. Mr. Livingood spoke of it, that there are 
studies that have been done, I suppose, with reference to 
inside of the building and ensuring that everything, I guess, 
along the protocol is taken care of in terms of evacuating 
folks. But what about a study outside the building? And people 
really just seem to not have been able to discern where to go 
and what to do. And so what about a study and plans that have 
been put in place for that?
    Mr. Livingood. There is a group after May 11--there was a 
group formed by the Capitol Police that are looking into the 
recommendations for particularly air evacuation, what would be 
our procedures, and the outside security surrounding our 
evacuations.
    Ms. Millender-McDonald. Okay. Fine.
    Chief Gainer. May I add just a little bit to that? It is 
part of the committee's direction and Mr. Livingood's, as well 
as the Senate Sergeant at Arms, to be very specific, what would 
we do this afternoon if this came up while we are doing all 
this studying? Chief Rohan, who heads operations, the Assistant 
Chief, along with his inspectors and deputy chiefs, instantly 
after that incident instituted a plan where officers will be 
repositioned by intersections.
    So there are a lot of simultaneous things going on, as you 
might expect. As we evacuate the buildings and go through the 
buildings looking for people, as soon as their core mission is 
done in the building and the building is secure and empty, then 
each officer is going to a pre-positioned place around the 
Capitol complex and remains there, number one, to be available 
to maintain the security.
    Now, when we abandon these buildings, we still have to keep 
them secure because it could be a trick by terrorists. So the 
officers are all going to pre-positioned positions, and I think 
as we work through better messaging and that the people 
understand better where they need to go, but I hope one of the 
things we will hear from the experts from the private sector is 
the need to exercise a lot more.
    The Capitol complex has been just outstanding, especially 
since the anthrax and ricin days, about suspicious packages and 
how we react, but we haven't been very willing to do mass 
exercises and practices so that everybody really understands 
where they go under what set of circumstances. Now, the balance 
of that, obviously, it is disruptive to Congress and the 
committees and what is going on. But we all know from our 
earlier days the value of practicing fire drills, and we are 
pretty good with the fire drills, but we have certainly not 
spent enough time on emptying the Chambers or other buildings 
in real-life situations.
    Ms. Millender-McDonald. Well, it seems to me with this 
newfound environment we are in that that should become a more 
frequent occurrence than not.
    It seems to me that with our needing evacuation experts and 
structural engineers, would we not have maybe someone on staff 
whose of this ilk? Or is that too expensive, Mr. Chairman?
    I do not know, but it seems to me like, at this juncture 
now, we need to have some of those folks who are talking with 
us on a daily basis. Maybe they are; maybe they are not, but 
structural engineers, it would seem to me like we should have 
someone on staff or a couple of those folks on staff. And 
perhaps that might not be the thing to do, but it certainly 
seems to me if you have to go outside and talk to these folks, 
maybe some of these folks should be on board.
    Mr. Livingood. The Architect has, I am sure, one or two 
people in that category.
    Ms. Millender-McDonald. Okay.
    Mr. Livingood. But they are assisting and working with--and 
they have been outstanding--AOC has been really helpful to the 
outside group looking at this. So it is a combination.
    Mr. Gainer. And we do have a very, very active security 
services division under the direction of Bob Greeley, who is 
one of the nationwide experts on security systems and building 
construction now. So he brings a wealth of information that he 
gained with years at the State Department in building their 
buildings, especially the embassies. So we do have a lot of in-
house experts, but we are not hesitant about turning to the 
university systems, the Department of Defense, ATF, 
academicians and others to learn more and to verify that we are 
going in the right direction.
    Ms. Millender-McDonald. One thing for sure, you three, and 
four with the assistant chief, are absolutely professionals. 
You do a yeoman's job, but such as what we do here, we still 
need these professionals behind us, too, as a backup and 
conduit.
    A couple more questions, Mr. Chairman, on this first round. 
One, Mr. Eagen, you spoke of the fact that our children at the 
child care centers are quickly bussed out. How soon do those 
buses come to get these youngsters out?
    Mr. Eagen. The bus is actually located right on campus, 
about 50 yards from the entrance of the daycare facility. So 
they have to, in the case of the infants, we actually take 
their rolling beds and roll them down the sidewalks. And so it 
is just a matter of the time to get them out of the building, 
onto the buses, start them up and drive away.
    Ms. Millender-McDonald. What about the House pages?
    Mr. Eagen. They have a similar capability. The pages are 
under the Clerk of the House as opposed to the CAO, but they 
also have a transportation vehicle as well.
    Ms. Millender-McDonald. And with reference to the Supreme 
Court and all of these other places, I know the employee union 
at the Library of Congress has asked for a Compliance Office 
review of the Library's emergency evacuation procedures. Is 
that something that is either being put in place or will be put 
in place.
    Mr. Gainer. I do not know that I can speak directly to that 
particular review, but I can say this: As you know, the acting 
chief of the Library police is one of our inspectors, and we 
have been working with the Deputy Librarian to sync their 
operational procedures and ours in their training, and a lot 
has been done.
    The Deputy Librarian of Congress has asked me next week to 
go to his senior staff meeting and address some of their 
issues. So things have substantially improved in our 
relationship with the Library of Congress in the way we are 
moving, notwithstanding how the merger may or may not go. But 
their training and communications, similarity of exercises, how 
we react, are very much in sync.
    Ms. Millender-McDonald. And the Supreme Court, which all of 
us are in the same radius?
    Mr. Gainer. Of course, they are a separate department, but 
again, we do work very closely with the Supreme Court police 
and the Government Printing Office police to try to mirror each 
other's procedures.
    As to an air threat, several senior members of the 
Marshal's Office in the Supreme Court as well as the police 
department are linked to our telephone system. So when one of 
these air threats comes on, we bring in all the key players 
from these different organizations and get on a telephone 
conference call so we know what is going on with each other.
    Ms. Millender-McDonald. And the last one. We are told that 
during the time of this evacuation, Blackberrys and phone lines 
were saturated during this moment, and Verizon was at a 70 
percent, Cingular was at a 50 to 75 percent load. What steps 
are we taking again, Mr. Eagen, with reference to 
communication, given the fact that we thought getting 
Blackberrys and all of this after 9/11 would suffice in terms 
of communication, and now we see that that too has been bogged 
down?
    Mr. Eagen. Well, exactly. You described the circumstances 
quite accurately. One thing I would emphasize, in a 
circumstance like what we faced on May 11, the Blackberrys and 
cell phones or others are considered a secondary communication 
mechanism. The primary communications are the annunciators and 
the sirens in the buildings that direct people to leave the 
buildings.
    The cell phones, the Blackberrys, those kinds of messages 
are supplementary and intended to be directed towards recovery 
as a supporting device.
    Ms. Millender-McDonald. Of course, Members were quite 
concerned, given the fact that they were not able to use a lot 
of their Blackberrys or cell phones because they were inside of 
the Capitol, and of course they do not use it on the House 
floor, we will reiterate that. But I am saying that they still 
were trying to communicate with staff back in the office and 
that type of thing.
    Mr. Eagen. That is exactly correct. When we first started 
making a House commitment to the Blackberry devices as an 
emergency solution, we recognized that at some point in the 
not-too-distant future, as that solution became more popular, 
we were potentially facing the same circumstance that has 
happened with cell phones. And that is that, during a 
circumstance where there is high use, the public grid can 
become overwhelmed. The statistics that you referenced are 
exactly what happened on May 11.
    Normally, during that hour, Verizon, for example, has a 99 
percent call success rate. For that particular hour, they were 
down to 70 percent. We have had discussions with Verizon, with 
Cingular, with Nextel as to whether there are capabilities for 
them to enhance their provision of services in this particular 
cell grid, and they are exploring that for us.
    I think it bears witness to the need for communications in-
depth, which is our strategy. So the new system we have stood 
up, called House Alert, allows us to send simultaneously 
multiple messages to multiple kinds of devices. And depending 
on the situation we are facing, we are going to encounter 
different circumstances.
    Ms. Millender-McDonald. I suppose.
    Mr. Eagen. What is very helpful to us and a place where the 
committee can potentially be of help is where the Sergeant of 
Arms sends a solicitation to all Members of the House at the 
beginning of each Congress and asks them to give us multiple 
contact numbers, phone numbers, email addresses, cell phones, 
et cetera, et cetera. That is what we use to populate this 
system. As of this point, we are missing about a fifth of the 
Members because we have not gotten a response.
    We cannot reach out to the Members if we do not get the 
information. So anything that you can do to help encourage your 
colleagues to provide that information, it will be treated 
confidentially, which is always a concern.
    Ms. Millender-McDonald. This committee is hearing you very 
clearly on that.
    Thank you, Mr. Chairman.
    The Chairman. I would note if we can be of help, because in 
the past, we had a payroll situation one time when Mr. Larson 
was ranking member. We had, I think, four people on a different 
type of payroll. The system was changing, but we were able to 
actually go through the staff of House Administration on a 
bipartisan basis and talk to them and get them to convert to 
the system.
    So if you do run into a situation like that, if we can be 
of help on outreach, we will be more than happy to do that.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I will try to be 
brief. I think we have covered much of this in detail, but just 
a few points.
    First of all, just on behalf of my staff, I want to 
communicate something they have communicated before and is 
still a problem: Trying to get out of the south area in 
Longworth is very, very difficult. The southeast entrance, you 
have the metal detectors there blocking the way, and there is a 
tremendous jam. And my staff is on the seventh floor. By the 
time they get down, they usually cannot get below the second 
floor because of the press of people on the stairways just 
trying to get out. And of course, there is no southwest exit 
from this building. So my staff has taken to going to the north 
end and then coming back. They are actually approaching the 
danger rather than getting away from it.
    At the very least, if we can, in an emergency evacuation 
like that, have your officers move the metal detectors 
somewhere else and get them out of the way so people can flow 
out of the building, it would be good. Because it is a bad 
situation.
    You might also be able to put for some people to exit via 
the truck bays; although that is not a good route. But I do not 
know if you, Mr. Eagen, could develop some sort of device, 
folding steps, that could be put in there so people could zoom 
out that way. But it is a major problem in Longworth. That is 
on behalf of my staff.
    In terms of what happened on May 11, perhaps it is the 
scientist in me, but I spent most of my time during the 
evacuation analyzing how it was going, and there are some 
things that were very good. We evacuated the Capitol very 
quickly. I thought that went extremely well.
    I also commend your officers. In previous evacuations, they 
have been basically standing there and pointing. This time, 
every one of them, ``get moving, get moving, get moving.'' They 
were really pressing people on and hurrying them on, and I 
think that was tremendously helpful. Because people, once they 
get out, tend to start looking around to see--looking for 
friends, looking in the air for airplanes, et cetera, and your 
officers did a good job of keeping them moving.
    Mr. Gainer. Thank you.
    Mr. Ehlers.  Perhaps a little too good, because I went to 
the assigned spot for my staff--I wanted to be with them and 
make sure everyone was okay--and could not find them. And I 
found one staff member, and she said, Well, the officers told 
us to keep moving and keep moving on further down. So none of 
my staff was at their assigned point. So you will have to work 
that out as to whether we are supposed to stop there or keep 
going.
    The communication, I think there was a problem in two ways: 
First of all, communication with your officers. I was surprised 
how little they knew. And I noticed people starting to move 
back into the buildings, and I kept asking people, do we have 
an all clear? I asked the officers, do we have an all clear? We 
do not know. But they did not stop the people from moving back 
into the buildings. Nothing on the Blackberry. It took well 
over half an hour before we got an all clear on the Blackberry, 
and by then, most of the people were already back in the 
buildings.
    I asked people when they were moving, how do you know it is 
okay? And most of them said they were listening to the radio or 
they had gotten a phone call from a relative or they had seen 
it on TV. And that is ironic. We have this great communication 
system for you to communicate with your officers, and they did 
not know what was going on, and the TV reporters did. They had 
reported it was a small airplane they had turned around.
    By the time we got the all clear, I think the airplane had 
already landed in Frederick. So, clearly, there has to be an 
improvement in that situation. And also sending out the all 
clear on the Blackberrys. I do not think the congestion lasted 
over half an hour, and you must have known at some point 
earlier than that that there was no further danger and that we 
could return to our offices or to the floor.
    Mr. Chairman, that is all I have to add to it. I can talk 
longer, if you like.
    Ms. Millender-McDonald. Just taking care of business here.
    Mr. Ehlers. Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    The gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman, and my apologies for 
being late. I was at a simply riveting hearing on patent law in 
the Judiciary Committee that I could not leave, but I think it 
is important that we are having this hearing. And I am hopeful 
that we will do lots more of this.
    One of the reasons why I was eager to accept this 
assignment when Nancy Pelosi asked me to do it was this kind of 
emergency services issue.
    I spent 14 years in local government before I was in 
Congress, and we organized in California, really thinking about 
earthquakes, not terrorism, but a lot of the steps that you do 
are the same. And we ended up actually in our county government 
making sure that close to 20 percent of our employees went 
through a week-long training of how to do CPR, all of the 
emergency services. And it actually not only helped us in 
government, but it was translated into kind of an emergency 
service force in the community. We had county employees that 
saved people's lives in libraries when somebody dropped and the 
like. So I am hopeful, and I am sure the Chairman is very 
interested as well, how we can do a better job preparing for 
emergencies.
    I would just like to say, when the evacuation began--I 
chair the California Democratic delegation--and we were just 
sitting down for our weekly meeting in the Capitol. And our new 
colleague, Doris Matsui, said, What is that noise? And I am 
glad she has great hearing because it was an officer shouting, 
``get out,'' and we did.
    And I am mindful that, as we were exiting the building, the 
officers stayed behind. They were there putting our safety 
ahead of their own. And I think all of us, you know, we have 
suggestions and helpful comments about how we can always do 
better, but I think, if it has not already been said, our 
gratitude to the officers for their service to us cannot be 
said often enough. So I want to do that again. Thank you so 
much.
    Mr. Gainer. We will relay that to them.
    Ms. Lofgren. And to all of your troops.
    Having said that, there are a few things I think we can do 
better, and it has already been touched upon. Communication is 
so important, and I think we really need to take a look at the 
Blackberry system.
    My Blackberry worked, but as I was out on the street, a lot 
of Members' Blackberrys did not work. And the information that 
I got on my Blackberry was very limited; you know, the nature 
of the emergency. And I think information can change how you 
behave.
    I was not in the Longworth Building, obviously, but I got 
feedback after the fact from people who were that they could 
not get out of the building because of the congestion in the 
stairway. Someone I know who was visiting a member said it took 
them forever to get down the stairway, and his colleague was 
waiting for him. He took the elevator.
    Well, if it is a fire, you do not want to take the 
elevator. But if it is a small plane, there is no reason not to 
take the elevator. So the more we can provide information, the 
better off we will be. And it seems to me, if Blackberry cannot 
upgrade their system, we need to look at some other system that 
can get the information, whether it is the announcement through 
our beepers, by moving some of that announcement off the campus 
itself, I do not know. But I think together we need to explore 
that issue.
    And the other thing that I think we can do better on, in 
addition to the quality of the information, is the timeliness 
of the enunciator system. I think it is great that we have put 
that in place, but my staff is on the first floor of the Cannon 
Building. As with the last evacuation, they discovered there 
was an evacuation when they looked out the window and saw a lot 
of people running by. So they figured something was up, and it 
was only afterwards the enunciators went off. So I think the 
timeliness of that as well as the amplitude of the information 
is something we could look at and improve.
    I sent a memo to the Chairman outlining some of the issues 
that I thought might be explored, and one may be sensitive, but 
I know we do drills. But we generally do drills when the 
Members of Congress are gone. And that is probably because the 
Members of Congress do not want to be drilled, and I understand 
that. But I think it is important that we subject ourselves to 
a drill, because that is more of a real-time situation. And 
even if it is inconvenient for the Members or some of our 
colleagues grumble, that we ought to just do that, and that is 
my personal opinion. And, really, we ought to look at it as 
supporting the guys and gals on the first line. If we are not 
willing to be discombobulated to that extent, how can we ask 
your officers to be brave on into the future?
    So those would be my comments, and my thanks also, Mr. 
Chairman, for holding this hearing.
    The Chairman. Thank you. And I would note the memo you gave 
me. Other Members have also sent in memos, and we wanted to 
wait for this hearing so we could receive as many answers back 
as possible. And some of the issues you raised were definitely 
raised also by some other Members.
    Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman. I join with the 
others in commending our three House officers here and the 
people under them for what they are trying to do.
    We are making improvements as we go on. Maybe you have 
addressed some of this, but I think for the most part you 
probably know more keenly than we do what the shortcomings were 
and where the areas of improvement lie. What were they?
    Mr. Gainer. From the police perspective, just as to the 
evacuation itself, it is the communication issue. The continued 
communication issue.
    Mr. Doolittle. You mean communication with us?
    Mr. Gainer. Yes.
    Mr. Doolittle. Okay.
    Mr. Gainer. Actually, the information we were getting from 
Homeland Security and others was the best that was available. 
And then each entity, whether it is the District of Columbia or 
the White House or us now have that information, and we have to 
act according to our policies and our procedures and what is 
particularly going on in our buildings.
    So I think we had all that we could have, and the Homeland 
Security and the military continued to improve that in the 
radar picture. So that is advancing. And that is how we handled 
the information and how we put that out.
    One of the things that we did not talk about is, we just do 
not go from standing still to evacuating. There is a whole 
series of things going on--for instance, in an air-con 
situation, we are tracking the speed, the direction, the 
altitude of the plane--that we are continually kind of 
ratcheting up what we are having our people do in preparation 
for a final evacuation.
    We have found out that, on May 11, we were not as precise 
and sharp as we should have been with Mr. Eagen's office, and 
we have already met and rectified that. We were better than we 
were before, and there are some ongoing things, but we will be 
better tomorrow afternoon on that.
    It was nearly, I will not say disastrous, but the reentry 
was very clumsy. One of the things you mentioned were people 
seeing on TV. In order to reenter the building, we have to 
reposition ourselves to get back into the building. Close all 
those doors that have been opened when the alarm sounds. And 
what was uncrisp at the time was the precise graduated reentry 
as we graduated to leave. And we have sharpened those already. 
But we need to drill it with both the Members and the community 
what it means to get you the information that the threat is 
over but you cannot quite get in the building, and that is 
where the confusion was on this.
    Clearly, the information about the plane, the intruding 
plane being turned and heading north was coming out quicker 
than our ability to get people back into position. So what you 
will see as we drill this with you and explain through the 
committees and others, that we would like to get you the 
information that the threat is over and now let us get ready to 
get back into the building. And it will probably take 10 or 15 
minutes to pull our officers back from the perimeters to get 
back into position at the doors and re-arm the doors. And that 
is something we had not drilled in practice. That was not very 
good.
    One of the other things we picked up not only during the 
Reagan funeral but reinforced during this one is most of our 
officers have the radios so that you and they can hear them. If 
you will see our dignitary protection people and others, they 
have the radio going to the ear. We have reevaluated that, and 
what we are going to move towards is, you will not be able to 
hear the radios publicly getting information because the sounds 
and sights and codes mean different things to all of us, and we 
do not want to confuse people. So there will be a little more 
silence.
    Based on the very good suggestion of Mr. Eagen, we have 
designated a tactical communications officer. So as soon as 
this happens, there is an individual whose sole job is to get 
information out to all the stakeholders so they have nice-to-
know information, need-to-know information, action information. 
And that went into effect this morning.
    Now, we were moving towards that, but we had to kind of 
goose the program and get this thing going a little quicker.
    Mr. Doolittle. Is that someone the three of you select?
    Mr. Gainer. It is someone in our shop.
    Mr. Doolittle. In the Capitol police?
    Mr. Gainer. Yes, it is. But, again, that is just an 
individual who uses technology and messaging formatting. Much 
has been developed on the House side, in Mr. Eagen's office, 
and he is in the midst, his staff, of showing us how to use the 
equipment, how we can get quicker messages out, and that has 
been a very ongoing joint effort.
    Mr. Doolittle. Do any of the rest of you want to add to 
Chief Gainer's commentary on what you identified as the 
shortcomings, areas where improvements were needed?
    Mr. Livingood. Well, we met right after the air evacuation, 
the next day, and then we met a second time, and then we met 
this last Monday.
    Mr. Doolittle. By ``we,'' you mean the three of you?
    Mr. Livingood. And the Capitol police and other officials 
and others from the Senate, et al. And we did lessons learned, 
and the major ones were the ones the Chief just mentioned, the 
communications.
    As he said, the big advantage that will change is having 
one person dedicated in the Capitol Police Command Center to 
push out information, to promulgate information. And that will 
be a huge improvement.
    Just to answer one other question. Sometimes people have 
said they did not hear the annunciator. The sequence in an 
evacuation, when you evacuate the building, not shelter in 
place but evacuate the building, will be the alarm going off 
first. That is the first thing. Everyone should leave when they 
hear the alarm. Sometimes you will be gone before you hear the 
annunciator because that takes another minute or so to get out 
over the airwaves, where the alarm you just pull.
    And coming on line will be a PA system that should go right 
after the alarm is pulled throughout all the public spaces in 
the buildings. So we will have a three-tiered besides the 
Blackberry. And that is something we have been working on and 
came to fruition or was brought to our attention as lessons 
learned after this last one. But we had been moving towards 
that.
    Mr. Doolittle. I was on the House floor, as I think all the 
Members were. I think we were having a vote right then. And 
just by coincidence, the Speaker happened to be near me, and 
somebody said, his security said, ``get down.'' it was like 
somebody might be in the Chamber with a gun or something. So we 
crouched down behind the seats. The Speaker, too. And then the 
next thing we knew, it was ``get out,'' but I never heard any 
alarms. Do we have these enunciators or alarms in the House 
Chamber?
    Mr. Livingood. No, there are none in the House Chamber per 
se, and that is the function of, and we have just finished a 
drill and gone over procedures in the last week of the Speaker 
or the Chair to announce.
    Mr. Doolittle. So there will not be, but the Chair will 
announce when one of these things happens?
    Mr. Livingood. Yes, sir.
    Mr. Doolittle. Mr. Eagen, anything you want to add, any 
shortcomings or lessons learned or areas of improvement?
    Mr. Eagen. I would echo the Chief's references on 
communications. Our objective all along has been to establish a 
capability that would have the Police Command Center have the 
direct tools to communicate to the House employee force, 
because they have the best knowledge about the circumstance, 
and we have been working towards that.
    I think the tactical communicator role that the Chief 
identified is absolutely crucial. Our vision has been to have a 
triple redundancy of that capability, even though if a 
circumstance occurred where the command center could not send 
out messages, that we would still have our emergency 
communication center as a backup, and then even third, beyond 
that, we are working towards having a triple redundancy at our 
alternative computer facility.
    There are certainly limitations with the Blackberrys. You 
have it correct. Just so you understand, when we send an all-
campus email out via the Blackberrys, the system alone takes 7 
minutes to cycle through 10,000 messages--then you encounter 
whatever is happening on the public grid--that those messages 
are going out. And now, in the world the House is in, it is 
multiple public providers, Verizon, Cingular, Nextel. When we 
first stood up the Blackberrys, we were using one vendor, and 
they had a data base solution that was very new and had limited 
usage, and it was very efficient. But what we discovered, with 
the Members particularly, was that that was not necessarily the 
best solution back in their districts, and they started to 
migrate to other providers. And we recognized that we had to 
stand up a capability that could reach them multiple ways.
    So the key for us, as I mentioned earlier, is having those 
multiple contacts. The simple problem may have been with one 
particular Member that we did not have their email address. 
Some Members do not use a House account as their primary email 
address; they use another provider. And if we do not have that 
email address, we cannot send it to their Blackberry.
    So the answer to what you alluded to could be multiple 
problems. Blackberrys are not perfect. I think today was a 
better example of where the Blackberry can be effective. I 
myself have gotten I think seven messages so far today. But 
that happened before the crunch of the business day. It was 
while most people were away from the campus, and it allowed us 
to send multiple kinds of information sources in a secondary 
kind of situation, not when the emergency is happening right 
there on the spot.
    Mr. Doolittle. Well, Mr. Eagen, when you send out a big 
blanket message like that, do you try to use Members' pin 
numbers if you have them? Or is it all only or primarily their 
email addresses?
    Mr. Eagen. We will use whatever we are provided. The House 
alert system can take multiple iterations of addresses for each 
individual.
    Mr. Doolittle. Well, does that 7-minute thing for cycling 
through, would that be 7 minutes if you used pins instead of 
email addresses?
    Mr. Eagen. That is 7 minutes for the entire address list 
that we send to.
    Mr. Doolittle. So that would be irrelevant then whether it 
was a pin or email address it was going to. That is just the 
limitation, technically.
    Well, my time is up, but I do want to ask this question: 
Verizon has had and I think still has an advantage that nobody 
else has because we cannot get the other antennas in. Has that 
situation been rectified?
    Mr. Eagen. Actually, that has already been resolved.
    Mr. Doolittle. It has.
    Mr. Eagen. Within the House office buildings, we completed 
a project that the committee sponsored in December to install 
multiple vendor repeating antennas, so that all the providers 
now have similar access to the House buildings.
    Mr. Doolittle. Good. So that is all in place?
    Mr. Eagen. Yes.
    Mr. Doolittle. As of December, or more recently than that?
    Mr. Eagen. December.
    Ms. Lofgren. Would the gentleman yield?
    The Chairman. If the gentleman and gentlelady will yield, 
just on that point. There were a lot of security issues to be 
worked out on that. In fact, it probably took three years, if I 
recall right. It transcended Mr. Thomas' chairmanship and also 
mine, but there was only one provider. And how it started, a 
Member would go down, and they would be walking through the 
tunnel, and they would see another Member and say, how does 
your cell phone work? Well, what provider is that? Well, that 
is Verizon. Well, in fairness to all the other people that have 
telephones, we might all want to switch to that one.
    But it was a process of the antenna system. And the 
Sergeant of Arms and Mr. Eagen, security-wise, also worked that 
out so that whole thing could eventually take place. So 
everybody has an equal footing on antennas.
    Mr. Doolittle. Good.
    The Chairman. The Gentlelady from California.
    Ms. Lofgren. I appreciate the gentleman yielding. I think 
the questions are excellent ones, and it stimulated one in my 
mind. As you know, I come from Silicon Valley and there is all 
kinds of technology out there that we may or may not know about 
here.
    Have we sort of posted the issue for the tech world to 
address, that we have an overwhelmed system and we need a way 
to be able to, in emergency situations, communicate and see who 
has a solution for us?
    Mr. Eagen. Similar to the answer that Mr. Livingood gave, 
we have no hesitancy going out to the experts in the world and 
seeking best practices. So, absolutely, we seek that kind of 
input and are open to new technologies and new solutions.
    The challenge of the House, quite candidly, is we have, for 
the most part, a decentralized business model. So deploying 
some of these things and getting everybody to adopt them is 
often the biggest part of the challenge. If a Member or a 
staffer is not willing to carry a device of some kind, then we 
cannot communicate with them.
    Ms. Lofgren. Then you are going to be doing, hey you. But 
most people are actually carrying devices at this point.
    Mr. Eagen. But not everyone.
    Mr. Gainer. May I add one of the other areas that we are 
looking at that needs improvement is where we evacuate to, and 
we have to reexamine that. But, still, part of that goes back 
to the human element. All of the technology and good 
communication without the practice of the humans is very 
difficult.
    We have talked to a lot of adult educators, and in some of 
these incidents, whether it is a big plane or small plane, we 
may have a tendency to say, you know what, probably the Capitol 
is more a target than the Ford building; probably the Capitol 
is more a target than Postal Square. But what the adult 
educators have shown us, and because we do not practice too 
much, is whether we can get different groups of people to do 
different things. And there is an awful lot of self-evacuation 
that goes on up here.
    So under some circumstances, it might be good to say let's 
evacuate the Capitol and everybody in the Ford building stay in 
place, or everybody in the Cannon and the Rayburn. And what 
happens, they are watching TV, listening to different things, 
and they see one group leave and the next group wants to leave.
    Again, the best example of that most recently--is when 
there was a bus fire in the 3rd Street tunnel by the Ford 
building. We were in perfect consult with the emergency 
management agency of the City, which we are also very linked 
to, and the Police Department and the Fire Department about 
what was going on. But then some people, when they saw the 
smoke, and it makes people nervous, and there were some 
explosions from that fire, then people start evacuating and it 
starts kind of a contagious hysteria; why aren't I learning 
something, why aren't you telling me? And then, as we put out 
that information, then the community comes back and says, you 
are giving me too much information; why do I want to know what 
is going on in the 3rd Street tunnel? So we are still in a push 
and pull on that.
    Mr. Doolittle. I would just observe on the two occasions 
like we have, Members are supposed to go to one place; and 
staff people and the other buildings, they have their places 
they are supposed to go. I was with a staff member so I 
intentionally did not go to where the Members are supposed to 
go. I went with him. I was going to go with the rest of my 
staff.
    Well, our primary meeting place, the police told us you 
cannot go there; you have to keep going beyond that. So, then, 
we do not have a primary meeting place. The backup meeting 
place, they were also told to go beyond, and so this thing of 
the meeting places has not quite worked out.
    We also are told to have those quick hoods, have them in a 
bag and one person takes charge of those. But if you do not 
have your meeting places worked out, then you are not going to 
have the quick hoods. I must say, I do not have a lot of faith 
in the quick hoods anyway, but that is one of the types of 
security that is being provided. But it is not really working 
out because, in these two situations we have had, you do not 
have that meeting place like we are supposed to have because we 
have been directed not to go there.
    Mr. Gainer. We are going to work on that with the House 
Sergeant of Arms and others to clarify that.
    Mr. Livingood. That is being worked on as of a couple of 
weeks ago.
    Mr. Doolittle. I know I am over. I will say this last 
thing.
    It was kind of ironic this morning. I did not read my 
Blackberry as I left the House this morning to see what was on 
it. And I should not do this, I know, but driving along I 
noticed in the car that I had a bunch of messages, and I had 
not cleared out the messages from yesterday. So without reading 
the messages, I just thought, you know, typically this is about 
something, some suspicious substance, and it is always 
resolved. And so I just deleted everything.
    Mr. Gainer. Ouch.
    Mr. Doolittle. Then I heard on the radio that there was a 
problem with the Rayburn Building. Are you concerned about--I 
almost think this issue of too much information, but we get so 
many of these things. It is like Proposition 65 in California 
when you walk into the grocery store. There is a warning there 
on the door that says: This premise may contain substances that 
are known to cause cancer in humans. Well, I have concluded 
virtually everything causes cancer, so I am not going to worry 
about it anymore. I am going to go into that store fearlessly.
    And it is the kind of thing with these Blackberry messages, 
we get so many of them, and they are all--virtually all, except 
for today--without meaning. So how do we deal with that? 
Because I tend to just write off, frankly, when I get some 
emergency announcement. I tend to sort of discount it, and I 
think that might be a real factor in other people's thinking as 
well.
    The Chairman. The House officers will not answer this, but 
I can. We have a course teaching Members to read their 
emergency enunciators.
    Mr. Doolittle. Well, I read them all until today.
    Mr. Eagen. The problem is when we start sending those 
messages, we do not know what the outcome is. I think the Chief 
referred to it. We often feel damned if we do, damned if we do 
not. Because if we do not communicate, then people are saying, 
how come you did not tell us? And if we do, and it turns out to 
be nothing, people are like, why are you bothering us?
    Mr. Doolittle. Okay.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Doolittle. Sure.
    Ms. Lofgren. Because I saved my notice from May 11th on my 
Blackberry. I know that is obsessive, but this is what it said: 
``this is a message from the U.S. Capitol Police. An evacuation 
has been ordered for the entire campus. Remain calm and move in 
a safe manner to the exits. If nearby, grab go-kits and 
personal belongings on the way out. Close doors behind you but 
do not lock. Avoid using elevators,'' I do not know why that 
would be the case. ``Proceed immediately to your designated 
assembly area. Check in with your office of emergency 
coordinator at the assembly area. Do not respond to the 
email.''
    Well, I think that there is some missing information I 
think we are addressing already, which is what is this event 
about. And as it turns out, I actually twisted my knee, and I 
went over to the physician. You know, Congress is full of 
middle-aged, out-of-shape people, and there were a lot of 
Members who were there seeking medical assistance.
    Ms. Millender-McDonald. Speak for yourself.
    Ms. Lofgren. I am speaking of myself, as a matter of fact. 
So I think more information would be a very helpful thing. And 
I understand what you are saying, John, but if you have enough 
information, you can make some judgments about what to do as 
well. I do not want to beat a dead horse, because I think that 
point has been made, and now I will erase this message.
    The Chairman. If you have any other questions, we can ask 
them, but I have a couple more questions I want to submit for 
the record. It is about the PA system we have been working on.
    I heard it in the Senate yesterday when I was over there. 
It is very loud, but they come over and say, ``This occurred on 
the first floor, near room 104; now, it is over with.'' They do 
that. They still send out a Blackberry notice, but they do that 
too. And I thought that was interesting yesterday when I heard 
it.
    I will follow up with this later, because my main questions 
were answered today about the airplane, things you are going to 
look at in the future, and a couple of the alarms that did not 
go off. I think we need to double-check that.
    Let me conclude with two things. And I want to give credit 
where it is due to all of you. The Speaker and Ted Van Der 
Meid, his staff, and I know Bernie Ramos from the Leader's 
Office and myself, and the gentlelady and Members have been 
insistent upon tours--letting the public come into this 
building. I give credit to all the people I named that are 
insistent on having tours. I know the House is bearing a lot of 
that load. I understand that.
    People are coming in the House and going out of the House, 
and of course, it is the People's House, but I think you have 
done a good job in training, working with the officers. 
Because, obviously, tours were taken care of that day, too. I 
had a couple of tourists that stopped by our office afterwards 
and said it was a good evacuation. All of you did a great job 
evacuating the tourists, including the staff-led tourists. This 
way, tours remain open in this building, and I think that is so 
important. But the education component you have done and 
continue to do with these officers I think is critical.
    I will yield to the gentlelady shortly. In regard to Mr. 
Doolittle's comments regarding the confusion on the floor, 
before the alarms went off, I heard two ladies screaming up in 
the gallery; they were running and screaming. I think they 
heard somebody say, ``Incoming plane.'' When they went out, two 
things were knocked over, two or three things out there, and it 
sounded like gunfire down the hallway, and somebody said, 
``There's a gun.''
    So the first reaction, before the alarm came on, based upon 
what I heard on the floor as I was back voting, was ``There is 
a gun.'' We heard two cracks and two ladies screaming.
    And as Paul Harvey says in the rest of the story--I will 
tell you that the gentlelady from California quickly said, ``We 
must protect Mr. Doolittle'', and jumped in front of him.''
    The gentlelady from California.
    Ms. Millender-McDonald. Oh, gosh.
    The Chairman. The rest of that is a true story. The 
Doolittle part is not.
    Proceed.
    Ms. Millender-McDonald. What a chairman we have here, eh? I 
am telling you.
    Getting back to Mr. Doolittle's issue on the reentry 
procedures, I am happy you are trying to crystalize those 
procedures. I also take note of the fact that the Senate 
recessed after that, whereas we came back in. Is that something 
that perhaps should be looked at? Or do they then break off and 
do their own thing returning back or what?
    Mr. Livingood. I think that is a question up to each 
respective body. There is no problem as far as the House was 
concerned with us coming back in to session, given there was 
provided enough time to set up the security with the Capitol 
police.
    Ms. Millender-McDonald. But it seems to me like they, too, 
need to crystalize the reentry procedures as well.
    Mr. Gainer. It does, from the police perspective, given the 
methodology of the House and the Senate create a little bit 
more problems to us. So that each body wants different 
information in a different format. So that is just a little 
more pressure on us. We can handle that, but with the limited 
radio channels, you are directing the Capitol division to do 
one thing, the Senate division to do another thing, and the 
House to do another thing, and we are trying to pump out all 
this different information. It does make more of an opportunity 
for us to do either real well or not do so well.
    Ms. Millender-McDonald. I can understand the challenges are 
with us, and certainly, each time we have these types of 
events, the challenges do come and new challenges arise.
    Mr. Eagen, we talked about the antennas that you have put 
in, but that only increases the coverage inside of the 
building, whereas Verizon has these cell sites that they can 
also communicate outside the building. Will we ever get to the 
point where those other cell phone services will perhaps have 
the cell sites?
    Mr. Eagen. I need to check into that for you. I would think 
we should be getting towards that. Outside the campus, that is 
a commercial decision on the part of each of the vendors as to 
what their cell coverage is. But I can certainly look into that 
for you and get back to you.
    Ms. Millender-McDonald. I would like to, because it also 
helps those of us that are having either the Verizon phones or 
the Cingular phones, and that may be something we can talk 
about along with the Chairman.
    The other thing, gentlemen, and you have been quite 
patient, but do we have adequate exits? Or are we looking at 
that, adequate exits for the number of people, again, and the 
design of the building? If this is something that you are 
contemplating, then we can accept that for now. But doors that 
perhaps can open just for these types of occurrences or that 
type of thing perhaps as we look into this. If we can look into 
particular doors that will open when this happens. Again, these 
are challenges that we are facing, so we need to look at that 
even if we perhaps have not.
    Mr. Gainer. Well, a couple of things, ma'am, and it is a 
great point, and we struggle a lot with that. Probably the 
quick answer is the stairwell size and the exit doors are 
inadequate for the number of people we have here, but we are 
dealing with the size and shape of the buildings we have.
    One of the things that our experts are doing is developing 
a computer model that will help better gauge the flow of folks 
out. But people up here are experienced enough to know that 
that is an issue.
    Some of the experts we brought in from Texas A&M even after 
President Reagan's funeral, in some of their preliminary 
information, really started to say, Gee, you have to have more 
staircases, you have to make them wider, things that just are 
not going to happen. So we then went to the computer modeling, 
and we are going to have to drill on how we are going to have 
to work with the tools and time and the size and shape of the 
building.
    As to the doors, again, the Architect of the Capitol and 
others have worked very hard with us to alarm them in such a 
way that people cannot get in them when they should not and are 
able to open when they must, and that is pretty consistent with 
almost all the doors.
    Now, I think your point about exiting, or maybe it was Mr. 
Ehlers, about exiting out of some of the other bay doors, I 
think that deserves looking at. I am just not real familiar 
with that. But when the alarms go off, all the locks go off all 
the doors and people are allowed to exit. That is what I 
referenced that, when we reenter, we have to go back and 
resecure all those.
    Ms. Millender-McDonald. Interesting. Interesting.
    The last thing that I will ask you I suppose this morning 
is, do you recommend lighted directional signs, signage that 
will give directions? Is there anything we can again look at 
that automatically lights up and says ``this way,'' ``go in 
this direction''? And it certainly would be good for those who 
are disabled as well to read signage that will tell them to 
exit or whatever.
    Mr. Gainer. From an emergency perspective, we think signage 
and lighting and strips along the floor would be the best, the 
absolute best thing. We have been troubled by the fact it is 
difficult to even identify what stairwell you are in, if you 
were stuck in a stairwell and wanted to call, to ascertain what 
floor you are on and what stairwell. So there has been a lot of 
conversation about that.
    So I think the balance is the historic preservation of the 
building and what is available. Our Office of Emergency Plans 
is working with the Architect and will make suggestions to both 
Sergeant of Arms and to the committees that that is an area 
that definitely needs to be improved.
    Ms. Millender-McDonald. You guys have done just an 
extraordinary job, and have done one today being with us.
    And, Mr. Chairman, the Office of Emergency Planning, 
Preparedness, and Operations, there is more of a reason we need 
to talk with them because of some of the things we have shared 
with these gentlemen, and I thank you so much.
    The Chairman. Any other questions? I want to thank so much 
the three individuals for being here today, for all you do 
keeping the complex safe. I look forward to some of the 
determinations you get on any afterthoughts on this whole 
evacuation, any thoughts of improvement, and again, I think a 
lot of things went right. And, again, I am looking forward to 
thoughts you find after the analysis of the large plane versus 
the small and what the content may be.
    I just want to thank all three of you for the wonderful job 
you do, and thank the Members for all their patience. And with 
that, we will move on to the second panel.
    Mr. Gainer. Thank you for your support.
    Mr. Livingood. Thank you, Mr. Chairman and Ms. Millender-
McDonald. We thank you for your support and your suggestions 
and help, all of you.
    Ms. Millender-McDonald. Thank you. Absolutely.
    The Chairman. I want to thank this second panel.

    STATEMENTS OF JACK L. JOHNSON, JR., MANAGING DIRECTOR, 
PRICEWATERHOUSECOOPERS, WASHINGTON FEDERAL PRACTICE; THOMAS L. 
  KENNEDY, SENIOR VICE PRESIDENT, PROTECTION SERVICES, VANCE; 
COLIN PETER COXALL, QPM, LL.B., CONSULTANT, SECURITY STRATEGY, 
CAPITA-SYMONDS GROUP LTD.; KEITH STILL, PH.D., FOUNDER AND CEO, 
                      CROWD DYNAMICS LTD.

    The Chairman. I think we have a very fascinating second 
panel. We are fortunate to have with us Mr. Jack Johnson from 
PricewaterhouseCoopers. Mr. Johnson is the Managing Director of 
PricewaterhouseCoopers Washington Federal Practice. He was 
Chief Security Officer of the Office of the Deputy Secretary, 
Department of Homeland Security from December 2003 to February 
2005. He was Deputy Assistant Director of the Office of 
Homeland Security, United States Secret Service, and Special 
Agent in Charge, Forensic Services Division, and Assistant 
Special Agent in Charge, Intelligence Division, and on and on 
and on. And that is our first panelist.
    The second is Mr. Thomas L. Kennedy, Senior Vice President, 
Protection Services, and that is for Vance. Mr. Kennedy is a 
resourceful and team-oriented senior executive with three 
decades of progressive experience with the United States 
Department of Justice, Department of State, and private 
industry. He is internationally recognized for his 
organizational development skills and his extensive experience 
in physical security, executive protection training, asset 
protection and information technology security. He is widely 
recognized through a broad network of security, government and 
law enforcement contacts in the United States and international 
venues. I want to thank Mr. Kennedy for being here.
    The third witness is Mr. Colin Coxall, from Capita-Symonds, 
and he has ventured a long way to be with us here today. He has 
been awarded the Queen's Police Medal for Distinguished 
Service, Senior Command Course, Bramshill, Wolfson College, 
University of Cambridge, King's College, University of London, 
Honours Degree in Law. And present position is consultant, 
Security Strategy, Capita-Symonds Group Ltd. And that is from 
1998 to date. He was Commissioner of Police in Bermuda from 
1995 to 1998. He has been the Deputy Commissioner, City of 
London Police; Acting Commissioner, City of London Police; Home 
Office, Deputy Assistant Commissioner Grade; and about three 
more pages of very incredible references. And we want to again 
welcome you to the United States; we appreciate your expertise.
    The last witness is Dr. Keith Still from Crowd Dynamics 
Ltd. And Dr. Still is the founder and CEO of Crowd Dynamics 
Ltd., an international consulting business which advises on 
crowd dynamics during normal and emergency situations. Their 
current projects include the development of a myriad and 
assortment of tools and techniques used around the world for 
modelling crowd dynamics. He also lectures at Easingwold, the 
U.K. Cabinet Office, and the Emergency Planning College, where 
he runs workshops to teach safety considerations to the 
industry. He has recently advised on crowd safety 
considerations for the Jamarat Bridge in Saudi Arabia, the 
world's largest crowd dynamics problem.
    And we want to welcome you again for coming so far across 
the seas to be here.
    And with that, we will start with Mr. Jack Johnson.

               STATEMENT OF JACK L. JOHNSON, JR.

    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, Madam Ranking Member, members of the 
Committee on House administration. Thank you very much for 
giving me the opportunity to address your committee today on 
this extremely important topic.
    The events of Wednesday, May 11, 2005, clearly demonstrate 
the atmosphere that law enforcement, first responders and 
emergency preparedness officials operate in following the 
events of September 11, 2001. In this instance, an errant 
plane, piloted by individuals who had simply lost their way and 
did not realize the ramifications of their wayward travel, 
caused a chain of events that resulted in the evacuation of the 
Capitol and of the key structures in the restricted flight 
area.
    Although the pilot's activity has since been determined to 
be a benign threat, the actions of the law enforcement and 
emergency preparedness officials in this case demonstrate in 
the clearest sense their ability to respond to these types of 
situations.
    I would be remiss if I did not take this opportunity to 
specifically commend the actions of the U.S. Capitol Police 
under the command of Chief Terry Gainer for their 
professionalism and decisiveness under these circumstances.
    I have been in the law enforcement, intelligence and 
security fields for over 30 years, many of these years right 
here in the Washington, D.C., area, and have seen firsthand the 
transition and professionalization of the Capitol Police. I can 
think of no other law enforcement organization that has so 
revolutionized its personnel and mission to meet the challenges 
they face everyday.
    This transition, although already under way prior to the 
events of 9/11, has taken on a greater sense of urgency for 
this organization since that time, and in many respects, it has 
now set the standard that other law enforcement organizations 
seek to emulate. Quite simply: They get it.
    The role of an emergency management architecture in this 
type of scenario, to evacuate the Capitol area and, if 
necessary, ensure the continuity of our Nation's legislative 
process, is truly daunting. It is not one that can be 
approached in a haphazard or unorganized manner, but instead 
must be a proactive and orchestrated process that interacts 
with over 4,500 Members of Congress and their staffs, each with 
individual evacuation plans.
    This process also necessarily involves other key 
components, such as the Capitol Police themselves, the Sergeant 
of Arms; Office of Administration; Office of Emergency 
Preparedness; and the Architect of the Capitol; Thomas Kennedy, 
Vance International, Inc.; Jack Johnson, Jr., Price Waterhouse 
Coopers; Mr. Colin Coxall, C-O-X-A-L-L, Capita-Symonds Group, 
Ltd.; Dr. G. Keith Still, Crowd Dynamics, Ltd.
    Mr. Johnson. Together all of these entities have made great 
strides to ensure that the necessary elements of a 
comprehensive evacuation plan have been formulated and 
implemented for all of the respective stakeholders.
    Despite this remarkable progress, there are, in my opinion, 
but a few more pieces of this evacuation mosaic, if you will, 
to add before it is truly a comprehensive and enterprised 
program that is able to meet all of the needs of this esteemed 
body.
    My first recommendation is that there be one overarching 
organization that is responsible for the evacuation program of 
the Capitol. It is my understanding that this function 
currently is a collective responsibility of several entities. 
My experience is that whenever this type of critical function 
is shared, particularly by several components, there is always 
the possibility of differences in priorities, miscommunication, 
and problems with the proverbial handoff especially during a 
crisis.
    My suggestion is that one organization be named as the 
responsible authority for this program, with the other 
components serving as an executive board to provide assistance 
and input. This enterprise organization should have the ability 
to leverage resources and technology, and the authority to 
institute policies and best practices to all of the 
stakeholders. Additionally, this organization would also 
mandate minimum requirements for all evacuation plans, to 
include critical areas such as building exit locations, 
evacuation routes, assembly and rally points, emergency 
coordinators, and training requirements. There must also be a 
requirement to conduct regular unannounced evacuation drills to 
familiarize employees and identify any impediments.
    Second, it is incumbent upon this overarching authority 
that it view the evacuation plans in a collective fashion. Once 
you have ensured that the individual evacuation plans have been 
implemented and tested, it is imperative that a consolidated 
and comprehensive testing methodology be instituted. The 
philosophy of this organization must be that it prepare for the 
worst and hope for the best. It must be assumed that, when the 
next evacuation occurs, both Houses of Congress will be in 
session, it will be a peak tourism time in Washington, and that 
significant delegations with a variety of physical challenges 
will be visiting their Representatives.
    Fortunately, there have been significant advances in the 
simulation modeling technology associated with evacuation 
planning that can be of tremendous assistance in this regard. 
This technology, coupled with a risk management methodology, is 
capable of projecting virtually limitless types of evacuation 
scenarios and validating both individual and enterprised 
evacuation plans.
    As I have indicated, all the components involved in the 
evacuation planning process of the Capitol should be lauded for 
their efforts and accomplishments. As evidenced by this 
hearing, the Members of Congress themselves and in particular 
this committee should also be commended for the critical 
importance that they place on this issue. All too often 
emergency preparedness planning and the ensuing law enforcement 
responses are minimized due to their being viewed as 
inconvenient and intrusive. It is refreshing to see that this 
is not the case of the United States Capitol. The attention 
that this body places on this matter goes a long way to 
instilling public trust, and the American people should feel 
reassured that the critical issue of the potential continuity 
of our Nation's legislative process is receiving the 
appropriate scrutiny.
    This concludes my opening statement. I look forward to 
answering any questions.
    The Chairman. Thank you.
    [The statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.001
    
    [GRAPHIC] [TIFF OMITTED] T2481A.002
    
    [GRAPHIC] [TIFF OMITTED] T2481A.003
    
    The Chairman. Dr. Still.

                  STATEMENT OF G. KEITH STILL

    Mr. Still. Good morning. Thank you, Chairman Ney, 
Congresswoman Millender-McDonald, and members of the committee, 
for your invitation to be here today. My name, as you have just 
stated, is Dr. Keith Still. I am the president and founder of a 
company called Crowd Dynamics. We are part of the Capita 
Symonds Group, a 2 billion parent turnover company in the U.K., 
and we are dedicated to the study and analysis of crowd 
behavior.
    Crowd dynamics is the study of how and where crowds form 
and move in places of public assembly during normal and 
emergency situations, and we have for the last 15 years been 
leading the world in both the simulation of crowds and the 
understanding of behavioral-basis safety. Our company has 
provided consultancy services to dozens of the largest 
municipalities throughout the world with a specific focus 
towards the safe and efficient management of people in times of 
evacuation. We have advised on terrorist-related issues such as 
the safety and security of the Sydney Olympics, crowd issues 
relating to smallpox epidemics and immunization in Holland, and 
the safety and security for the U.K. Labor Party conferences 
for the last 2 years. We have also advised on major religious 
gatherings such as the annual pilgrimage to Mecca in Saudi 
Arabia.
    Our technology assesses the relative probability of certain 
behaviors within large crowds during adverse conditions, such 
as emergency evacuations, in order to design safer environments 
or apply the appropriate management in evacuation strategy. We 
base these predictions using a variety of algorithms to take 
into account physical conditions of the venue in question, the 
purpose of the crowds gathering, the relative nature of how 
human beings behave in certain mass conditions. But while much 
of the effort has proven to be enormously useful, our studies 
reveal that the successful evacuation depends greatly on 
preparation, planning, and, most of all, training.
    We have developed a series of workshop materials and 
courses at the U.K. Cabinet Office Emergency Planning College, 
and for the last 7 years we have worked with multiagency 
authorities such as the police, fire officers, ambulance, first 
responders, emergency planners, business continuity planners, 
building control officers, safety and security personnel at 
multibuilding, multisite venues.
    For this reason, a great deal of our company's effort has 
been focused on building simple-to-use documentation and 
procedures, training programs from municipalities and site 
owners in the event an evacuation should become necessary.
    Our experience has indicated that next to the proper crowd 
management planning techniques, training and preparation of 
employees and safety managers is the single greatest return of 
investment for the crowd's safety in the event of an emergency 
evacuation. Forewarned is forearmed.
    In summary, our techniques and technologies have assisted 
numerous government-level clients in assisting potential 
emergency scenarios involving events from 500 people up to 3 
million people; from organizing my local fireworks display in 
my village to the facility planning, integrated management, and 
design changes of an over $1 billion project of a bridge in 
Saudi Arabia.
    Our studies and technologies have led the way to providing 
public and private managers with critical solutions for large-
scale crowd management while ensuring safety for all those 
involved in the events.
    And, lastly, our experience has shown that, when faced with 
emergency evacuation, those entities who have planned and 
trained for such eventualities have far greater success in the 
fulfillment of getting people to safety than those who do not 
train for those eventualities.
    Our experience and recommendations are as varied as our 
clients. Yet, within the science of crowd dynamics, it is 
ultimately about people and behavioral-basis safety.
    And I was interested to hear the comments earlier about how 
people are being complacent about the information coming across 
Blackberries, about the junk that has been accumulated in the 
corridors, about the security exits blocking exit routes in the 
southeast of the building, about overreaction to certain 
information. We are doing a series of workshops in Las Vegas 
after the MGM stampede where a table fell over and somebody 
thought it was gunfire, and a stampede ensued. Particularly, 
the things about signage, way-finding, location, these are 
areas that we have specialized in over the years.
    You may not be able to predict the behavior of any single 
individual; however, the behavior of certain masses have 
certain characteristics and variables that are very predictable 
specifically relating to indents that give rise to personal 
injury. When properly controlled, these variables can be 
reduced and used as tools for prediction and management of 
crowd safety.
    I know of no other company using simulations and situations 
such as the Hodge, where 3 million lives depended on the 
mathematics of crowds. In these types of situations, I had no 
margin for error.
    We model environments such as the U.K. Financial district, 
using sophisticated computer simulations to develop simple 
solutions to complex problems. The key is in implementing a 
practical and useful strategy for a multibuilding site, 
providing the appropriate training and education programs and 
the information and communication infrastructure to ensure 
crowd safety during emergency. We have delivered this already 
at our financial district.
    Adequate planning and preparation have proven to be the key 
factors in reducing levels of risk and increasing personal 
security. Nothing replaces preparedness in moments of mass 
evacuation.
    At this time I would be happy to discuss these and any 
other topics related to crowd dynamics and questions you may 
have. Thank you.
    The Chairman. Thank you.
    [The statement of Mr. Still follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.004
    
    [GRAPHIC] [TIFF OMITTED] T2481A.005
    
    [GRAPHIC] [TIFF OMITTED] T2481A.006
    
    [GRAPHIC] [TIFF OMITTED] T2481A.007
    
    [GRAPHIC] [TIFF OMITTED] T2481A.008
    
    [GRAPHIC] [TIFF OMITTED] T2481A.009
    
    The Chairman. Mr. Coxall.

                   STATEMENT OF COLIN COXALL

    Mr. Coxall. Good morning, Mr. Chairman. I would like to 
thank you and Congresswoman Millender-McDonald and members of 
the committee for this opportunity to testify this morning. I 
have a few brief opening remarks as well as a written statement 
which I have submitted to you which is slightly more 
comprehensive and would take longer than I have, of course, at 
this moment to deliver.
    For over 25 years, the British Government and its citizens 
struggled with the very real crisis of violence and IRA 
terrorism within our home borders. The threat to Britain's 
homeland security was played out almost nightly as news of bomb 
blasts and other acts of terrorism continued to threaten our 
national security and our nation's commerce. This included 
three massive truck bombs in the city of London, where I 
eventually ended up as chief officer of police, and attempts to 
assassinate our Prime Minister Margaret Thatcher, and a further 
attempt to assassinate our Prime Minister John Major and the 
Cabinet.
    In response to these enormous threats against our security, 
the home office and London police authorities asked Capita 
Symonds, who I now represent, to assist them in developing a 
unified set of security measures capable of identifying, 
stopping, and preventing terrorist attacks before they even had 
a chance to reach its intended target. The policy of our 
government was not to fortify the capital, it was to use 
intelligence and to use technology to protect the capital. In 
essence, we were challenged to devise a system that would 
capitalize on technology, protect the citizens of London well 
in advance of a terrorist event.
    Remarkably, the challenge gave way to perhaps one of the 
greatest security and surveillance systems in operation in the 
world today. Through the use of several sophisticated 
technologies, Capita Symonds and the City of London Police 
designed and deployed a perimeter security system unequaled in 
terrorism prevention. Our solution practically eradicated major 
acts of violence from occurring within the city of London area, 
which was an amazing feat, and was accomplished with hard work 
and overwhelming public support, huge support from the 
community in relation to the technology we installed.
    In addition, this system and its success has directly 
contributed to substantial reduction of violent crimes within 
our metro area and prevented countless other crimes before they 
could be perpetrated. This remarkable achievement is made 
possible by the integration and collection of crucial vehicle 
intelligence data, and communicating that data in near real 
time directly to the police officers on the ground. This 
crucially important vehicle information is analyzed and 
communicated back to the officers in 4 seconds, having searched 
on databases of many millions of records.
    In short, our systems of vehicle identification and 
intelligence collection have become the backbone of our 
antiterrorist prevention systems in London. The subsequent 
sharing of that information has provided the British police 
with the tools and technology necessary to aggressively monitor 
and thwart potential terrorist threats before they ever become 
a reality.
    Our ring of steel, as it is now being called and has been 
commonly called throughout the world, now protects the City of 
London's political government and financial sectors with up-to-
the-second surveillance data to hundreds of law enforcement 
officers on the ground. These vehicle surveillance systems are 
now used extensively throughout the United Kingdom. Our 
technologies and solutions have preserved the way Londoners 
live and how our security forces protect our citizens.
    I hope throughout forums such as this our experience in 
Great Britain can begin to provide useful insights as to how 
similar levels of security can be attained here in the United 
States. I thank you for your time, and I am very happy, of 
course, to answer any questions you may have.
    The Chairman. Thank you.
    [The statement of Mr. Coxall follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.010
    
    [GRAPHIC] [TIFF OMITTED] T2481A.011
    
    [GRAPHIC] [TIFF OMITTED] T2481A.012
    
    [GRAPHIC] [TIFF OMITTED] T2481A.013
    
    [GRAPHIC] [TIFF OMITTED] T2481A.014
    
    [GRAPHIC] [TIFF OMITTED] T2481A.015
    
    [GRAPHIC] [TIFF OMITTED] T2481A.016
    
    [GRAPHIC] [TIFF OMITTED] T2481A.017
    
    [GRAPHIC] [TIFF OMITTED] T2481A.018
    
    [GRAPHIC] [TIFF OMITTED] T2481A.019
    
    The Chairman. Our last witness is Mr. Tom Kennedy.

                 STATEMENT OF THOMAS L. KENNEDY

    Mr. Kennedy. Mr. Chairman, Madam Ranking Member, members of 
the Committee on House Administration, on behalf of Vance, I 
would also like to thank you for allowing us to participate in 
this valuable hearing.
    The way business is transacted and how government operates 
and how national defense is conducted have changed since 9/11. 
Additional world events have challenged us to prepare to manage 
previously unthinkable situations that may threaten an 
organization's and our government's future. Today's threats 
require the creation of an ongoing interactive process that 
serves to assure the continuation of an organization's or the 
government's core activities before, during, and, most 
importantly, after a major crisis event.
    Security today is an extraordinarily difficult challenge 
that requires coordinated and focused effort. This new 
challenge goes beyond the mere emergency response plan or 
disaster management activities that we have previously 
employed. We must act to reduce our vulnerabilities before they 
can be exploited to damage our Nation's critical 
infrastructures and ensure that, if attempted, destructions are 
infrequent, minimal in duration, manageable, and cause the 
least possible damage and loss of life.
    It is no longer enough to draft a response plan that 
anticipates naturally or accidentally caused disaster emergency 
scenarios. Plans must be developed to address possible 
intentional catastrophic events to include evacuation plans of 
large numbers of people, such as the U.S. Capitol evacuation 
plan. However, a plethora of scientific studies and procedures 
to confirm the anecdotal assumptions of effectiveness of such 
plans does not exist.
    I have not had an opportunity to examine the evacuation 
plan, nor have I been privy to post-May 11 assessments of its 
execution; therefore, my comments will be focused on industry 
standards used to examine the efficiency and effectiveness of 
emergency evacuations and response to disasters, and my 
personal observations based on 35 years of experience, and 
public information available to me. My comments are limited to 
the evacuation. Information technology security, business 
impact analysis, and continuity of operations are not 
addressed.
    Large-scale evacuations in the United States have 
historically been effective, successfully saved lives, and 
reduced the number of injuries associated with the hazard 
addressed. The U.S. Capitol plan, I believe, is no exception.
    Your overall evaluation of your emergency evacuation 
response operations should include approximately six components 
and their subcomponents: the direction and control, the 
notification and warning, traffic movement and control, 
sheltering, reentry, and training.
    The direction and control includes the evacuation 
decisionmaking process. Is the decision to evacuate made by a 
single individual or two or more individuals involved in the 
decisionmaking process? Are they armed with criteria to make 
that decision? Has different evaluation criteria been developed 
for various threats?
    The command, control, and coordination process. An 
overwhelming factor contributing to evacuation effectiveness is 
a high level of coordination and cooperation among the various 
elements resulting from an effective command structure. That 
is, the command structure is well understood, participants work 
well together, and emergency coordinators are empowered to make 
decisions. Is the command structure well understood? Who is 
empowered to make those decisions?
    Emergency communications, as we have already discussed, are 
an important factor; emergency response activities, also. Two-
way radios are the predominant method of emergency 
communication; however, radio communications issues are always 
reported in numerous cases. This usually involves that radios 
are not on the same frequency or reception issues. Multiple 
forms of emergency communications such as cell phones and 
pagers and e-mails, which have previously been discussed, are 
generally used, which often compensates for radio failures. It 
should be noted, as you are aware, that jammed cell phone 
networks occur during emergencies.
    Are the emergency response personnel mobilized and notified 
in sufficient time to complete the evacuation? Evacuation time 
estimates and modeling can be used to provide a tool for 
preplanning as well as protective action decisionmaking. It 
identifies potential challenges to efficient evacuation. Are 
evacuation time estimates developed?
    And your notification and warning. Multiple methods of 
notification are most efficient, as I have seen from previous 
testimony, which are deployed. These methods usually involve 
sirens, telephones, radio, public address systems, office-to-
office notification. Multiple methods of notification should be 
used.
    Shadow evacuations, which haven't been discussed. Are 
people evacuating outside of the designated evacuated area? 
They should have no significant impact on the traffic or the 
congregate care center capacity or on the efficiency of the 
evacuation in general. However, public awareness of a hazard, 
knowledge of part of the evacuation procedures, and especially 
of altering methods may contribute to the efficiency and 
effectiveness of the evacuation.
    Also, as previously discussed, are both vehicular and 
personnel movement carefully controlled? Are the evacuees 
directed where to go as they exit the structures? Are public 
emergency centers used? Who decides on the return and in what 
order should be discussed.
    Training and exercises contribute to the effectiveness of 
evacuations. The most successful plans generally have been 
tested in full-scale field exercises. This may or may not be 
feasible to the U.S. Capitol, in which case incremental testing 
would be advised. This is perhaps one area your committee 
should examine and review.
    Cooperation from evacuees is repeatedly cited as 
contributing to safe, efficient, and effective evacuations. 
Conversely, individual behavior is attributed to less efficient 
evacuation. Specifically, individuals taking nonsanctioned 
actions, usually trying to help out, are common issues reported 
as evacuation challenges. This reverts to the training and 
exercises.
    Shadow evacuations, as I previously stated, are defined as 
evacuations by persons outside of the officially declared 
evacuation zone. If appropriate, have shadow evacuations been 
considered?
    Finally, advanced statistical methods, including regression 
and correlation analysis, can be used to scientifically analyze 
and identify key factors contributing to your evacuation 
efficiency.
    A system should be considered to be devised by which all 
personnel can be accounted for quickly after the evacuation. 
This system can range from a simple telephone tree or taking 
advantage of new technologies which addresses this issue.
    When time is a major consideration, as in the case with 
evacuations associated with air assaults, new and innovative 
ways to evacuate handicapped persons should be explored.
    In conclusion, Mr. Chairman, based on information publicly 
available, and considering whether issues were encountered in 
decisionmaking, emergency communications, notification of 
response personnel and local officials, citizen action, traffic 
movement and control. And reentry, it appears that the May 11 
evacuation proceeded efficiently and effectively in terms of 
evacuee health and safety, security, and issues related to 
coordination, decisionmaking, and emergency response.
    Thank you for your time, Mr. Chairman. And at this time I 
would welcome any questions the committee may have.
    The Chairman. Thank you.
    [The statement of Mr. Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T2481A.020
    
    [GRAPHIC] [TIFF OMITTED] T2481A.021
    
    [GRAPHIC] [TIFF OMITTED] T2481A.022
    
    [GRAPHIC] [TIFF OMITTED] T2481A.023
    
    [GRAPHIC] [TIFF OMITTED] T2481A.024
    
    [GRAPHIC] [TIFF OMITTED] T2481A.025
    
    The Chairman. I appreciate the witnesses. We had our 
internal discussions today, but it is helpful that you are 
outside the box. You are with companies, and so you can give us 
another perspective. I appreciate your comments about the 
evacuation here.
    Let me get your thoughts about one issue that has been 
debated a little bit in the media. It deals with Homeland 
Security analysis of planes, their contents, and whether or not 
we should evacuate based upon our analysis of the contents. 
Does anybody have any thoughts on how to account for some of 
the potential dilemmas that small planes present? Do they have 
something dangerous in them; should people be moved in or 
outside? Does anybody have any thoughts on the plane issue?
    Mr. Kennedy. I think the chief of police addressed it to 
some degree. Various scenarios have to be addressed. As I said 
in my comments, criteria should be developed for these 
scenarios. Decisions should be made as to which one they are 
in; go down your checklists efficiently and quickly to make 
your decision. A small aircraft can be as dangerous, if not 
more dangerous, at times as a large aircraft depending on what 
is on board. And you may not have the luxury to try to figure 
out what is there. However, you do have the luxury to get 
experts to evaluate what is the worst thing I could do to you 
with a small aircraft, and what, of course, is the least thing 
I could do to you.
    The Chairman. I think that is fair. I heard some people say 
that the plane would have just bounced off the Dome like a ping 
pong ball. Well, we don't know that until it is analyzed and we 
have assessed all the variables, including, the types of 
chemicals or explosives that the plane could be carrying. So I 
am happy to hear you say that. But I also think it should be 
looked at.
    I have a question, unless somebody wants to comment on the 
plane. My question relates to people, crowds, and their 
behavior. You dealt with Canary Wharf. You dealt with the Haj 
and the massive number of people over there. In those 
situations, was there any industry best practices on persons 
with disabilities and taking that into account in any of the 
situations either of you gentlemen have dealt with? And, of 
course, the other two gentlemen too.
    Mr. Still. Yes. For the Haj specifically, the mobility-
impaired have special procedures which are dealt with with the 
security forces. For Canary Wharf, again, special procedures 
are set up. There is an institute in the U.K. At Belfast 
University which specializes in looking at evacuation 
procedures.
    The Chairman. Where is that in the U.K.?
    Mr. Still. Belfast University, for a--Professor Jim Shields 
set up the FireCert Group across there. They have a lot of 
experience in looking at this issue of how best to evacuate 
people with mobility impairment. And this includes sighted, 
hearing deficiencies. We did some work with the Special 
Olympics, which are for the--I forget the politically correct 
phrase--for people with learning difficulties, how to deal with 
the Olympic events there that were to be held in Ireland. So we 
have a lot of experience in looking at these particular types 
of issues, yes.
    On the plane. If you just look at a basic threat matrix, 
you have the one threat of a plane full of explosives causing 
some damage, but you have got multiple threats of damage on the 
streets to the personnel, to the people, from chemical, 
biological, radiological, or nuclear fallout. So on a basic 
threat matrix, you could look at the probability functions 
there of what could be in this aircraft and which is the safest 
policy, stay put or evacuate. So there is a way of looking at 
that type of problem.
    The Chairman. Mr. Coxall, do you have anything?
    Mr. Coxall. The only thing I could add to that as a former 
chief of police is the fact that you are constantly--and I 
listened towards your chief who was saying--which I totally 
agreed with--you are constantly set with the situation do you 
evacuate into danger, or do you keep people within the 
building? And we certainly found when we had the truck bombs 
going into the city of London, and we had many suspected bombs, 
of course, many, many more than were, in fact, real devices, 
frequently the option was to get people to the back of the 
building or down into the basement of the building and then 
secure the area until your security services could establish 
whether there was a real bomb or not.
    The Chairman. I know we have a vote coming, so I want to go 
on to other Members so everybody can at least get a question or 
two in.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman.
    And thank you all so much for your expertise. I tell you, 
there is just so much here to try to synthesize and bring 
forward.
    Mr. Kennedy, since you were the last one, we will start you 
off first. And in your position as overseer of asset protection 
and information technology, we have heard in recent reports of 
lost backup tapes with sensitive data that has become a focal 
point for data protection. Would you recommend encryption of 
data tapes prior to off-site storage?
    Mr. Kennedy. Well, the short answer is absolutely. There is 
a longer, more complicated answer on better ways of storage and 
backup; however, anything that can be encrypted in this day and 
age should be. Also, the transportation of that material has to 
be changed. The methodology I saw in that particular issue, 
while efficient, was not securely effective.
    Ms. Millender-McDonald. And so I suppose, given that it 
would be more of an elongated answer than what you have given 
us, those problems that are associated with that would be also 
elongated in terms of your answer?
    Mr. Kennedy. Well, in that particular one, Madam Chairman--
--
    Ms. Millender-McDonald. Madam Chairman. That is good.
    Mr. Kennedy. I am sorry.
    Ms. Millender-McDonald. Thank you so much, Mr. Kennedy.
    Mr. Kennedy. You are quite welcome.
    The Chairman. Will the gentlelady yield?
    Ms. Millender-McDonald. Yes.
    Mr. Kennedy. In that particular situation, I have worked on 
backup tapes and information in a classified, highly classified 
environment, and we chose to actually have shadow backups and 
duplication of effort ongoing simultaneously, which then 
precluded the necessity to actually make a backup tape and 
carry it someplace. You could destroy what you had on-site; you 
already had your backup where it needed to be. Or you then had 
to use a very secure methodology of transporting that 
information to the secondary location. All information should 
be encrypted and secured.
    Ms. Millender-McDonald. And speaking about shadow 
evaluation, I think I noted that when you were talking. What do 
you do in terms of those other buildings outside of the 
chemical and others?
    Mr. Kennedy. In the case of the Capitol, I haven't had the 
opportunity to actually surveil the area. You need to take a 
look at whether or not there are businesses, residences, other 
people in the area that, because of the volumes of people 
coming out of this area off the campus, thousands, 35,000 
people, what effect will they have on them? Someone had 
commented, I think one of my colleagues, on people beginning to 
evacuate before they should; they think they hear a gunshot, or 
you wind up with a panic. That is a situation. Some 
information, not all information, if it is going to affect 
those areas, you are going into those areas, those people need 
to be alerted in some way, shape, or form that 35,000 people 
are coming their way; otherwise, you could have a panic if this 
area has that situation.
    Ms. Millender-McDonald. It is amazing you would say that, 
because just last night one of the businesses that I went into 
spoke about the evacuation and how they just had a barrage of 
people just coming into their place, and it was so overflowing 
because--and they didn't know what to do because these folks 
didn't know where to go, and so they just came to this place 
and just housed themselves there. And so----
    Mr. Kennedy. You certainly don't want those people 
wandering back toward where you are evacuating from either.
    Ms. Millender-McDonald. The other thing that we are looking 
at, given the two-way radio communication units that you spoke 
about certainly would be good for the disabled persons, and 
should our annunciation--annunciators provide two-way 
communication systems given this 5/11?
    Mr. Kennedy. Increased security always increases or almost 
always increases inconveniences. That has to be weighed. For 
instance, if I were to tell you I could give you a beeper or a 
pager, and if it beeps, just evacuate, to carry that with your 
Blackberry, carry that with your cell phone, carry that with an 
access control card that I would like to have you to have also 
so I could immediately put you in a database when you walk 
outside the building, now you have four or five things. We have 
to carefully evaluate how we are going to do this, what would 
be effective, and then what is the probability of you carrying 
these things.
    Ms. Millender-McDonald. It is amazing. You think about 
these things, but you do not think about its impact or 
ramifications given that.
    Mr. Jackson, you spoke about an overarching authority that 
should be put in place whereby one organization then, I guess, 
synthesizes all of this and disseminates that out. And I am so 
happy to see the Sergeant at Arms and the Capitol Police and 
the assistant chief both here. How effective is that? And I 
think I can kind of answer that, but I need to have you mention 
that.
    And you spoke about drills. How often should we have that?
    And you spoke about testing. That is a nuance, it is a 
whole new phenomenon that I have not heard. So can you expound 
on that?
    Mr. Johnson. Yes, Madam Ranking Member. Certainly anytime 
you have a situation that requires an evacuation, no small 
feat, no small decision to be made, you need to have one, as I 
indicated in my remarks, overarching authority. And the key 
word in there is the authority, someone that has the 
information that enables him or her to make an informed 
decision as to what you need to do. And to echo comments my 
colleagues have made earlier, that includes appropriate 
intelligence. That also includes a matrix. And it also includes 
a risk methodology that you have to include as part of your 
decisionmaking process.
    My experience has been that any time you have such an 
important responsibility that is bifurcated and that has 
several people involved in the process, if you will, there is 
always the possibility that you may have gaps in the 
organizational chain, may have time delays. And minutes in this 
case are absolutely critical, in some cases even seconds. So I 
think you need this overarching authority that needs to be able 
to harness all the input from all the components that serve 
stakeholders to develop policy. I can't stress enough what I 
think the importance of this authority needs to have to be able 
to require minimum standards for all evacuation plans. And then 
once they have those evacuation plans individually that have 
been created and implemented and tested, you can now look at 
them in an enterprise perspective through a modeling 
capability, if you will, that you can test these things 
collectively and determine where your problems may be.
    This is not a total panacea, however. You absolutely must 
have unannounced testing for this entire complex if you want to 
be successful. Human behavior is such that it is impacted in 
many, many ways by different things. Human nature, a lot of 
people just by the way they walk in the building sometimes 
dictates the way they walk out of it.
    One of the things I would like to point out. A couple years 
ago up in Rhode Island there was a horrendous fire in a 
nightclub, and a lot of people perished there. And a lot of the 
people perished because everyone tried to go back out the same 
door they came in. It is human nature. The only way that you 
can change that human nature is through the unannounced testing 
and the drills that basically solidify your plan, that 
basically educate people as to why you go a certain way, why 
you evacuate to a certain point, why we go through certain 
procedures. This isn't going to occur in a modeling scenario. 
That helps you identify your gaps and your impediments. It must 
occur with real-life, unannounced testing.
    Ms. Millender-McDonald. Excellent. And I am sorry to have 
called you Mr. Jackson, Mr. Johnson. And so I apologize for 
that.
    Speaking about behavior, Dr. Still, you spoke about that 
and the predictability. How do you expound on this, given the 
behavior that many talked about with reference to that day of 
May 11, with those faces looking--you know, they were just 
fearful. And folks even talked about the leadership and their 
behavior. How do you, what can you tell us in terms of 
predictable behavior, and how do we get into that?
    Mr. Still. First of all, I think the testimony we had 
earlier demonstrates that you have made enormous progress, and 
that the procedures and practices that are in place are 
probably second to none. When dealing with the human condition, 
and to echo Mr. Johnson's comments, people invariably assess 
risk in their mind differently to how they assess risk 
mathematically. So there are mathematical solutions and 
computer simulations that give us one set of answers looking at 
how the human being responds under both normal and emergency 
conditions, as you cited the example of Rhode Island where 100 
people perished coming out the way they came in.
    These things are predictable, and they are mitigated by 
information, communication, and training. A lot of the 
exercises we run in Saudi Arabia, where we had 171 different 
countries, 121 different languages, many different forms of 
communications, you succeed by embedding the information into 
the environment.
    I think there was some talk earlier about orientation and 
way-finding on the floors, knowing where you are, where you 
need to go. A lot of the exercises we run at Canary Wharf, our 
financial district, was about orientating people within the 
context of the building, within the context of the island, and 
within the context of the emergency, and the core--because we 
didn't know where the accident or incident may occur. So we 
need to be able to keep people informed of the severity of the 
incident, the location of the incident, and the most 
appropriate action to take place.
    Now, prior to 9/11, there was the GTFOD principle for, you 
know, as an accident, a fire in the building: Let's everybody 
get out of there as quickly as possible. Now you have got 
directed egress. You might need to move people away from the 
scene of the threat, or phased evacuation where you need to 
contain people for decontamination process. And there is the 
stay put policy which has been observed in the U.K. During the 
IRA terrorist activities. It is safer to keep people in 
buildings under certain types of scenarios or threats.
    So these are modeling exercises that we can test the 
boundary conditions, how efficient the system may operate, and 
then look at how we then implement and structure training, 
education, and processes to cover for how people may react in 
emergencies.
    So there is a degree that is predictable, but there is also 
a degree that is programmable by building smarter environments, 
better signage, better communication systems, and processes and 
procedures.
    Ms. Millender-McDonald. How can you predict behavior when 
it is staged as opposed to when it is real?
    Mr. Still. I think anybody that would state that a computer 
simulation can give you all the answers is probably not 
adequately competent to answer those questions. It is a 
combination of education and training. It is a combination of 
unannounced drills. And basically the computer simulations 
allow you to understand the boundaries. For instance, your 
southeast exit, how many people could we get out of there over 
a period of time? What procedures do we need to put into place 
to prevent an area becoming overwhelmed? So you can test with 
simulations the limits, the boundaries, and then you develop 
appropriate strategies, processes, procedures, and information 
systems to prevent those boundaries being broken.
    Ms. Millender-McDonald. Mr. Coxall, I am going to say this. 
This might be a little sensitive, so. Our planes have to come 
in from Andrews Air Force Base. Would there be a possibility 
that having that closer in would help in terms of getting to 
the scene quicker by having maybe a helicopter at the National 
Reagan as opposed to having to come out as far as--or is that 
something that we need to talk about now or later?
    Mr. Coxall. Well, this may be outside my sphere, inasmuch 
as I have not studied the situation here; I am principally here 
talking about the systems we have put in effect to deal with 
terrorism in central London. But the backup situation with 
helicopters I really cannot comment on, ma'am.
    Ms. Millender-McDonald. Okay. Is there anyone here who can? 
And if that is anything that you can say publicly, or should we 
just perhaps talk about that later on? Either one of you may 
respond. In terms of having initially some type of military 
plane at Washington, at Reagan National.
    Mr. Johnson. If I may, as you are aware that there are a 
number of resources that respond to this type of situation. It 
goes into a phased approach. The first phased approach, my 
understanding, was a Department of Homeland Security Blackhawk 
helicopter which made the initial interception, and immediately 
upon responding to that, it phased a secondary notification to 
the response planes.
    My personal opinion is that the distance in locating planes 
from Reagan to Andrews Air Force Base, given the speeds that 
those jets can accelerate, is somewhat insignificant.
    Ms. Millender-McDonald. I see. Fine.
    Mr. Coxall, the last question I have is closed-circuit 
television, as we know that in London you indicated that it 
reduced crime. Would that, can that also be some other means of 
an apparatus to be used in terms of discerning any impending 
threats, or any likelihood of closed-circuit television being 
used for anything with reference to terrorist threats?
    Mr. Coxall. We are. The closed-circuit television systems 
that we principally have been using are those related to the 
movement of vehicles. Our deep concern in London was the threat 
from moving vehicles, and all of the terrorist bombing attacks 
we suffered were a result of vehicles being moved into 
sensitive areas. And, therefore, we discovered that--what was 
self-evident, of course--that terrorists and criminals need 
vehicles to move around.
    And it was essential, therefore, for our security services 
and our police to enhance our intelligence-gathering methods 
that they could link vehicles to terrorists and link vehicles 
to criminals. And so, therefore, there was a change of 
methodology in the police service and the security services 
throughout the U.K. So that the intelligence-gathering process 
was linking people to the vehicles, and in some cases many 
vehicles, and this had to be constantly kept up to date.
    We therefore had data warehouses which could therefore be 
searched upon by CCTV systems around the capital, particularly 
around the financial area which we were trying to protect 
because there were huge threats to the financial center. And 
these CCTV systems would capture the index plates of vehicles 
and the description of vehicles, would search against this 
database in less than 3 seconds usually, but never more than 4 
seconds, and would relay to the command and control centers if 
it was necessary to take action in relation to a vehicle. It 
may be a stolen vehicle, it may be a vehicle known to be used 
in crime, it may be a vehicle known to be associated with 
terrorism. And I could give you many, many vehicles of how this 
was successful, and by this method we prevented any further 
bombing attacks taking place within the financial center.
    The terrorists then moved the threat to areas where they 
knew we didn't have the camera systems. And I am going back to 
the early stages. They then moved it then to Canary Wharf, 
which was our second financial center in London. That then came 
under attack by vehicle-borne bombs until we then put the 
camera systems into there. And we very publicly told the 
community, in fact told everybody in the country, exactly what 
we were doing. And we had a huge support from the community.
    We have now moved those camera systems around our country 
at strategic places which you wouldn't expect me to discuss to, 
and we have therefore systems where vehicles moving towards 
London who are believed to be involved in terrorism or serious 
crime can be taken out at areas where they are not a danger to 
the public.
    Ms. Millender-McDonald. Because of time, I have other 
questions, and if we can get to that before the Chairman 
concludes the committee, I will. But you spoke about the huge 
support from the public and the community. And that is in and 
of itself some type of behavioral changes there. So I thank you 
all so much; and if I can get back, I will raise up other 
questions.
    The Chairman. The gentlelady from California.
    Ms. Lofgren. Well, thank you. And our Blackberries worked.
    We have got votes in about 10 minutes or less so I will be 
very quick.
    This has been interesting, and I appreciate especially our 
witnesses from Great Britain coming all the way here to share 
their experiences with us.
    I am interested, Mr. Coxall, on in your testimony relative 
to the automated license plate recognition system, and I don't 
know if you are familiar with what we are doing here on the 
Capitol Police Truck Interdiction Program, which is essentially 
orange cones on Independence Avenue and a visual look at who is 
driving. I don't know if you have comments about that or not. 
If you do, I would be interested in whether you think there is 
a better approach to that given the layout of the Capitol 
complex.
    Mr. Coxall. The layout, of course, is of crucial 
importance. Visual identification, it is very much down to 
guesswork and the intellect of the officers who are doing it 
and the instructions they might receive. It is not a very 
accurate way.
    Ms. Lofgren. Well, the trucks can't go at all. I don't want 
to mislead. The trucks are not supposed to go down the street. 
But certainly there are large--I mean, limousines can, and they 
can carry a load as well. So there is--but there is an 
inspection of vehicles coming by.
    Mr. Coxall. Yes. The system we have used particularly very 
close to our central financial area, which was so threatened, 
was that the officers stand alongside the camera systems. But 
the camera systems will be reading the index plates of the 
vehicles as they approach. And so within a few seconds, in fact 
less than 4 seconds, the officers will be informed if they 
should be taking any particular action in relation to a given 
vehicle.
    Ms. Lofgren. I was interested in that further in reading 
through your written testimony. Clearly London has deployed 
cameras and a system to evaluate the information that we have 
not done, and whether or not we are prepared to do that is a 
different question. But the database would be essential. I 
mean, you can see the license plate, but what do you do with 
it?
    And, you know, the World Trade Center, the first World 
Trade Center bombing with the truck bombs, that was a rented 
truck bomb. It is not very hard to rent a truck; frankly, it is 
even easier to go buy some junker truck. And that--how would 
you know that that was something to be worried about? How did 
you create a database that would alert the authorities to be 
concerned?
    Mr. Coxall. This is the work of the intelligence services 
and the police service. They are monitoring a certain group or 
certain individuals, which is their job. They would then be 
loading their systems.
    Ms. Lofgren. So it is intelligence-based.
    Mr. Coxall. It is an intelligence-based process for the 
officers, but it is capable, of course, of screening so that 
any vehicle--if the threat was coming from rented vehicles, the 
hard vehicles, you could then screen out those vehicles so that 
all rented vehicles or all rented trucks, for instance, could 
be stopped. And if it is known, of course, a certain terrorist 
group are using vehicles, rented vehicles, from a certain 
company, then, of course, intelligence can be gathered about 
that particular company, and particular effort can be taken in 
relation to those particular vehicles. It is all intelligence-
based, and the systems are only as good as the intelligence 
that goes into it.
    Ms. Lofgren. Perhaps, whether in this committee or Homeland 
Security, we should explore that further, because I remember 
years ago when I was a young staffer here, my mother came out 
to visit me for a week, which was great, and we rented a car. 
And it cost so much to rent the car, and at the end of the week 
I went out and bought a junker car for less than we paid to 
rent it. And it was an education to me that a good terrorist 
wouldn't necessarily have to--they would go to the next 
alternative that wouldn't actually catch you up in an automatic 
screen.
    So the intelligence issue would be key, and I don't know 
that we are in the same spot that Great Britain is on that, but 
I appreciate your willingness to share your experience and your 
good work.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Mr. Chairman, let me first thank 
you and your staff and even my staff for bringing on such 
extraordinarily effective experts and men, and they are men all 
at this juncture, who have brought some insight, further 
insight, into the challenges that we face.
    There are a few more questions I have, and one would be 
what would have happened, how could we have done the 
evacuation, had the weather been either raining or freezing? 
Would the evacuation process be the same? Should we have any 
other diversions from that? If someone can answer that 
question.
    The other question I have is in terms of, Mr. Kennedy, this 
evacuation was achieved within 10 minutes. Could we have made 
that a faster process? And, if reasonably so, given the 
thousands of people, how could we have done that better?
    And the third and last one would be aside from airplane-
based threats, are there any other things that we should be 
doing? And what about the Capitol Police Truck Interdiction 
Program?
    Those are the three questions I have. If any one of you can 
jump on those. Mr. Kennedy.
    Mr. Kennedy. Thank you. As far as the time element goes, 
you raised a very interesting question, which makes Capitol 
Hill evacuation for the air type of attack very, very unique. I 
looked at approximately 250 evacuations over a 13-year period. 
Only about 6 percent deal with what we call malevolent type of 
causes. Most evacuations what you are looking to do is to 
evacuate as quickly and as safely as possible. Capitol 
evacuation is evacuate as quickly, as safely, and, oh, by the 
way, you have 3 minutes and 32 seconds because the aircraft is 
traveling at a certain--you know, distance equals rate times 
time. That adds a factor to--I will only speak for myself--to--
in my 35 years of experience, that adds a factor that I have 
not considered very often. If you have a bomb and you see a 
clock, I mean, but this type of thing is not addressed.
    There are modeling simulations on people flow. My colleague 
mentioned testing and actually plans where--unscheduled. That 
is one of the best things you have to do. You have to train 
people to go in certain directions at certain times. Otherwise 
in a real situation they are liable to do, as my colleague 
said, go for the door they walked in that morning.
    Also, as I mentioned in my statement, in order to--on the 
time element, I think a couple of Members and yourselves have 
alluded to it, and I had said to kind of think out of the box, 
which is--in fact, take the Longworth Building for instance. In 
walking here, I think I observed about five or six elevator 
banks, a number of floors in the building. There is certainly 
enough to key and have one individual responsible for one floor 
to take handicapped to the first floor in a matter of--in this 
case would be seconds as opposed to possibly minutes to take 
someone to the first floor.
    These things--of course, backup systems, which the police 
chief had talked about, have to also be discussed. But we have 
to start thinking of unique and different ways that heretofore 
hadn't been considered to get people out quicker, models I 
think will work, and then test them with real drills. I would 
do a lot of modeling, some of which I recommended, my colleague 
has recommended some modeling, and then actually test them 
unannounced.
    In all due respect to the Members, I noticed one Member 
commented that he wanted to be with his staff. That gets to 
continuity of operations. I don't know if that is part of the 
continuity of operations, but he may have, thinking he was 
doing good by going with his staff, just violated one of the 
keeping the Capitol operational. So people have to be trained, 
tested, and the Members have to participate in those tests.
    Ms. Millender-McDonald. Quickly, the weather conditions.
    Mr. Johnson. Madam Ranking Member, a comment I would like 
to make about that, and that is an excellent question. You said 
that is one of the variables that needs to factor into your 
entire risk methodology. If it is a sunny day, you are probably 
going to evacuate; if it is raining, you are probably going to 
evacuate; if it is cold, you are probably going to evacuate. If 
it is snowing and ice outside, that is another variable you 
need to plug into your risk methodology coupled with what do we 
know about the threat? The threat in this case is a small 
plane, unknown origin, unknown what is on board. And this is 
what you have to incorporate into this methodology that goes to 
this overarching authority to help him or her make that 
ultimate decision: Do we stay or do we go?
    Ms. Millender-McDonald. Excellent. Excellent. And I wish we 
could expound more, but we can't. We are hearing the bells.
    And the third one is the Capitol Police Truck Interdiction 
Program. Anyone can expound on that?
    Mr. Coxall. I could touch on that, if I may, ma'am.
    Ms. Millender-McDonald. Sure.
    Mr. Coxall. Yes, of course, it is--I am sure it is a good 
system, providing the technology is working. But my only 
comment on that was we in London would be very uncomfortable 
indeed of allowing the uninterrupted or the unsecured access to 
an area as sensitive as this by any vehicles, because large--
any large sort of goods-type vehicle or any large vehicle can 
carry--potentially carry a bomb which could cause severe damage 
and destruction and destruction to life. Therefore, we have a 
system where every vehicle coming into the sensitive part of 
central London, every vehicle has its index plate read, and we 
have it in a system. The technology is now so good, 
irrespective of the speed the vehicles travel, that is a 98 
percent--nearly up to 99 percent of vehicles the index plate is 
read accurately now by the police service. So they have the 
option of stopping that vehicle if they are concerned about the 
vehicle or the driver of the vehicle or the contents of those 
vehicles.
    Ms. Millender-McDonald. You all have been extraordinarily 
good. So has our panel of our insiders. We thank you all.
    Mr. Chairman, thank you so much for a very timely, 
informative, and a very effective hearing.
    The Chairman. I want to thank the gentlelady. And I want to 
again thank all our witnesses, both panels, and our staff here, 
both sides of the aisle, and the gentlelady and the Members who 
worked so hard for the hearing. It is important. We have a 
family here on Capitol Hill, as I call it. 9/11 brought 
everybody that deals with or visits the Capitol into a new 
world of thinking.
    I think staff of the Hill, the Capitol Hill Police, the 
staff the House officers, and everybody else has risen to the 
occasion, kept an eye out for one another, and did the right 
thing in how they reacted to a bad situation. But the purpose 
of today's hearing, was accomplished. We wanted to look at what 
other ways we can improve as we look back on these situations--
which is constantly done, by our House officers and the staff 
anyway. But this is a very good way to do it.
    Also, having this panel is a good way for us to look 
outside the box, and we have always been willing to do that. 
Our House officers have been our chiefs.
    So with that, I again want to thank everybody for your time 
and travel. And you two get the award for the longest travel. 
Thank you for being here in the United States.
    With that, I ask for unanimous consent that Members and 
witnesses have 7 legislative days to submit material into the 
record, and for those statements and materials to be entered 
into the appropriate place in the record. Without objection, 
the material will be entered.
    The Chairman. I also ask unanimous consent that staff be 
authorized to make technical and conforming changes on all 
matters considered by the Committee in today's hearing. Without 
objection, so ordered.
    And completing our business, that will conclude our 
Committee hearing, and we are adjourned. Thank you.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
